       Social Security Administration

         Inspector General’s
    Semiannual Report to Congress



A Calling That Counts




        April 1, 2001 — September 30, 2001
                     MISSION STATEMENT
By conducting independent and objective audits, evaluations, and investigations,
we improve the SSA programs and operations and protect them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice
to Administration officials, Congress, and the public.

                      VISION AND VALUES
We are agents of positive change striving for continuous improvement in SSA’s
programs, operations, and management by proactively seeking new ways to pre-
vent and deter fraud, waste, and abuse. We are committed to integrity and to
achieving excellence by supporting an environment that encourages employee
development and retention, and fosters diversity and innovation, while providing a
valuable public service.
SSA OFFICE OF THE INSPECTOR GENERAL



Message from the
Inspector General
I am pleased to present our Semiannual Report to Congress for the period of
April 1, 2001 through September 30, 2001. This report meets the
requirements of the Inspector General Act of 1978, as amended, and includes
information mandated by Congress. This report outlines our mission,
significant activities, and provides our assessment of SSA’s top 10
management challenges for Fiscal Year (FY) 2001. It also includes
highlights of work that has been accomplished under each of these
challenges, including several major cases and other organizational
achievements.

I am especially proud of our employees who tirelessly dedicated               Inspector General
                                                                              James G. Huse, Jr.
themselves to responding to the events of the September 11, 2001 terrorist
attacks. Our office has been heavily involved in investigations of
individuals suspected of being associated with these events. It quickly
became apparent just how instrumental the use of fraudulent Social
Security numbers (SSN) has been for these individuals, who rely on aliases
and assumed identities to integrate themselves anonymously into our
society. Our auditors are working closely with SSA on implementing our
prior recommendations to improve the enumeration process and to protect
the integrity of the SSN.

We have also had other accomplishments this year including a major civil
monetary penalty case that resulted in a $200,000 penalty levied against
several Texas businesses involved in a misleading advertising scam. We
also launched a public education campaign to alert America’s senior
citizens about anonymous hoax flyers promising additional benefits from
the Government. These hoax flyers tricked seniors into parting with
coveted personal information in order to obtain these bogus benefits.
During this FY, our investigators closed 9,636 cases, our auditors
completed 80 reports, and our attorneys secured over $1,547,475 in civil
monetary penalties. The projected results from all our activities totaled
more than $280 million in SSA’s program areas. This represents over
$200 million more than our FY 2001 appropriation.

Your interest in these issues helps to ensure that we focus on the most
critical issues facing the Agency.

                                      Sincerely,



                                      James G. Huse, Jr.

SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01
SSA OFFICE OF THE INSPECTOR GENERAL



Table of Contents
Message from the Inspector General ................................................................................................... i

Introduction to Our Organization ........................................................................................................1

Significant Activities...............................................................................................................................3

Significant Management Issues Facing SSA ....................................................................................15

     Issue 1: Critical Information Infrastructure .................................................................................................15

     Issue 2: Disability Redesign............................................................................................................................19

     Issue 3: Earnings Suspense File......................................................................................................................21

     Issue 4: Enumeration .......................................................................................................................................26

     Issue 5: Fraud Risk...........................................................................................................................................29

     Issue 6: Government Performance and Results Act ...................................................................................36

     Issue 7: Identity Theft......................................................................................................................................38

     Issue 8: Representative Payee ........................................................................................................................42

     Issue 9: Service to the Public ..........................................................................................................................45

     Issue 10: Systems Security and Controls (Program and Administrative Applications)........................49

Financial Audits .....................................................................................................................................51

Appendices
     Appendix A: Resolving Audit Recommendations ....................................................................................55

     Appendix B: Reports Issued .........................................................................................................................57

     Appendix C: Reporting Requirements Under the Omnibus Consolidated 

                 Appropriations Act for Fiscal Year 1997 .............................................................................63

     Appendix D: Collections From Investigations and Audits ......................................................................65

     Appendix E: Significant Monetary Recommendations From Prior Fiscal Years 

                 for Which Corrective Actions Have Not Been Completed ...............................................67

     Appendix F: Significant Nonmonetary Recommendations From Prior Fiscal Years for 

                 Which Corrective Actions Have Not Been Completed .....................................................69

     Appendix G: Reporting Requirements ........................................................................................................73

     Appendix H: Glossary....................................................................................................................................75

SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01
SSA OFFICE OF THE INSPECTOR GENERAL                                                                1



Introduction to Our
Organization
The Office of the Inspector General (OIG) is comprised of four compo­
nents: Office of the Counsel to the Inspector General (OCIG), Office of
Audit (OA), Office of Investigations (OI), and Office of Executive Opera­
tions (OEO).




Office of the Counsel to the Inspector General
OCIG reviews and evaluates legislation, regulations, and standard operat­
ing procedures in terms of their impact on program economy and effi­
ciency or their prevention of fraud and abuse. It also provides legal advice
and counsel to the Inspector General (IG) on various matters, including:
(1) statutes, regulations, legislation, and policy directives governing the
administration of the Social Security Administration’s (SSA) programs; (2)
investigative procedures and techniques; and (3) legal implications and
conclusions to be drawn from audit and investigative material produced
by the OIG. OCIG also administers the Civil Monetary Penalty (CMP)
enforcement statutes, pursuant to a delegation from the Commissioner of
Social Security.

Office of Audit
OA conducts comprehensive financial, performance, and systems audits
and evaluations of SSA programs and makes recommendations to ensure
that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether
SSA's financial statements fairly present the Agency's financial position,
results of operations, and cash flow. Performance audits review the econ­
omy, efficiency, and effectiveness of SSA's programs. OA also conducts
short-term management and program evaluations and projects focused on



                                                                     Introduction to Our Organization
2                                             SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                        issues of concern to SSA, Congress, and the general public. Evaluations
                        often focus on identifying and recommending ways to prevent and mini­
                        mize program fraud and inefficiency.

                        Office of Investigations
                        OI conducts and coordinates investigative activity related to fraud, waste,
                        abuse, and mismanagement of SSA programs and operations, in accor­
                        dance with the Quality Standards for Investigations published by the Pres­
                        ident's Council on Integrity and Efficiency; the SSA OIG Special Agent
                        Handbook; and other applicable laws, policies, and regulations. This
                        includes wrongdoing by applicants, beneficiaries, contractors, physicians,
                        interpreters, representative payees, third parties, and SSA employees. OI
                        also conducts joint investigations with other Federal, State, and local law
                        enforcement agencies.

                        Office of Executive Operations
                        OEO supports OIG by providing information resource management; sys­
                        tems security and development; and the coordination of budget, procure­
                        ment, telecommunications, facilities and equipment, and human resources.
                        In addition, this office is the focal point for the OIG's strategic planning
                        function and the development and implementation of performance mea­
                        sures required by the Government Performance and Results Act. OEO over-
                        sees the Ombudsman Program and is also responsible for performing
                        internal reviews to ensure that OIG offices nationwide hold themselves to
                        the same rigorous standards that we expect from SSA as well as conduct­
                        ing investigations of OIG employees, as appropriate. Finally, OEO admin­
                        isters OIG's public affairs, media and interagency activities, coordinates
                        responses to congressional requests for information, and also communi­
                        cates OIG's planned and current activities and their results to the Commis­
                        sioner and Congress.




Introduction to Our Organization
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   3



Significant Activities

We continue to believe that sharing      OIG Response to
information between our auditors,
investigators, and attorneys is criti­
                                         September 11, 2001
cal to the success of our mission to     Terrorist Attacks
improve SSA’s programs and oper­         Despite having been temporarily
ations and protect them against          displaced, our audit and investiga­
fraud, waste, and abuse. Each com­       tive offices in New York City expe­
ponent of the OIG collaborates to        ditiously reconstituted their
address each critical issue while        operations in the wake of the recent
capitalizing on individual staff         tragedy. We provided round the
skills to obtain the best possible       clock support to the national crimi­
work product.                            nal investigation of the September
                                         11th terrorism attacks.
Since we in the OIG are facing
some of the same challenges as           Our agents, analysts and support
SSA, we also need to work faster         staff performed selflessly in these
and smarter to get the job done and      efforts. Our attorneys were instru­
maximize technological benefits to       mental in working through a
ensure our success. We continue to       daunting brace of disclosure issues
make steady progress, and our            and potential legislative matters to
effectiveness is evidenced by the        keep momentum going in our
numerous accomplishments high-           investigative response to this call to
lighted throughout this report.          action.
This section details several of our      At the same time, our auditors and
most significant activities including    support staff prepared critical cor­
our:                                     respondence to Congress and key
                                         government officials, highlighting
�   OIG Response to September 11,        potential remedial actions rising
    2001 Terrorist Attacks               from our audit work that might
�   Fugitive Felon Program               assist the Agency in the review of
�   Cooperative Disability Investi­      the integrity of the enumeration
    gations Teams                        business process, the viability of
�   Fight Against Senior Scams and       biometrics, physical security mat­
    False Statements                     ters, and the continuity of opera­
�   Partnership with U. S. Attor­        tions. Furthermore, SSA conducted
    neys                                 outstanding outreach efforts in the
�   Ombudsman Program                    New York/New Jersey region to
�   Coordination of External             process survivor and disability
    Inquiries                            benefits.
�   SSA Fraud Hotline
�   Investigative Accomplishments



                                                                                  Significant Activities
4                                                SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01



                         Fugitive Felon Program                      lators, and allows us to provide
                                                                     vital information to law enforce­
                         The Fugitive Felon Program was              ment agencies. Special agents in
                         established as a result of the enact­       our offices often work hand-in-
                         ment of the Personal Responsibility         hand with local law enforcement in
                         and Work Opportunity Reconciliation         locating and apprehending fugi­
                         Act of 1996, Public Law 104-193,            tive felons, and in developing fugi­
                         commonly known as the Welfare               tive cases from a variety of referral
                         Reform Act, on August 22, 1996.             sources, such as through our work
                         Generally, this law makes a person          with task forces and from SSA staff.
                         ineligible to receive Supplemental
                         Security Income (SSI) payments              For example, our Los Angeles Field
                         during any month in which the               Division agents are an integral part
                         recipient is:                               of the Violent Crimes Task Force,
                                                                     which is comprised of members
                         �	   Fleeing to avoid prosecution for       from 50 local, State, and Federal
                              a crime that is a felony.              law enforcement agencies, includ­
                         �	   Fleeing to avoid custody or con­       ing the San Diego Police Depart­
                              finement after conviction, under       ment, the California State
                              the laws of the place from which       Department of Corrections and
                              the person flees, for a crime, or      Parole, the Federal Bureau of Inves­
                              an attempt to commit a crime,          tigation (FBI), and the United States
                              which is a felony under the laws       Marshals Service (USMS). The task
                              of the place from which the per-       force has apprehended fugitives for
                              son flees, or which, in the case       a wide range of violent crimes,
                              of the State of New Jersey, is a       including attempted murder,
                              crime of the first through fourth      assault with a deadly weapon on a
                              degree.                                police officer, and narcotics smug­
                         �	   Violating a condition of proba­        gling.
                              tion or parole imposed under
                              Federal or State law.                  The table below demonstrates the
                                                                     success of this Program this report­
                         The Welfare Reform Act enables SSA          ing period and since its inception
                         to suspend SSI payments to fugi­            on August 1, 1996
                         tives and parole and probation vio­

                                          FUGITIVE FELON PROGRAM STATISTICS
                                                              April 1, 2001 -         Since inception on
                                                           September 30, 2001           August 1, 1996

                          Fugitives Identified                      15,306                 45,071

                          Fugitives Arrested                         1,479                  5,019

                          Fraud Loss / Overpayment                $28,059,219            $81,650,458

                          Projected Savings                       $41,469,972           $132,946,131




Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                                 5


Although the Program has been           Cooperative Disability
very successful using manual data
searches and direct referrals, our
                                        Investigations Teams
continued success is reliant upon       SSA’s Office of Operations and
using automated data matches to         Office of Disability, in conjunction
compare warrant information at          with our Office of Investigations,
the Federal and State levels with       manage the Cooperative Disability
SSA’s SSI rolls. To date, we have       Investigations (CDI) Program.
been successful in securing Memo­       Since Fiscal Year (FY) 1998, 13
randa of Understanding with the         investigative units have become
National Crime Information Cen­         operational in Atlanta, Baton
ter (NCIC), the FBI, and USMS.          Rouge, Boston, Chicago, Houston,
                                        Nashville, New York City, Newark,
SSA has also entered into matching      Oakland (California), Roanoke
agreements with the States of Cali­     (Virginia), Salem (Oregon), St.
fornia, New Jersey, South Carolina,     Louis, and Tampa.
Kentucky, Nebraska, Ohio, Tennes­
see, Massachusetts, Colorado,           To combat disability fraud, these
Rhode Island, Washington, Dela­         teams rely on the combined skills
ware, Illinois, Montana and Arkan­      and specialized knowledge of our
sas, plus the New York City Police      investigators, State and local law
Department (PD), the New York           enforcement officials as well as SSA
State Police, the Baltimore City PD,    and State Disability Determination
Baltimore County PD, and the City       Services (DDS) personnel. The suc­
of Philadelphia PD.                     cess of the CDI Program is directly
                                        attributable to this close collabora­
The computer matching process           tion.
has proven to be very successful in
identifying fugitives throughout        CDI Team Case Highlights
the country. Using this process, our
New York Field Division identified
a fugitive wanted by the Union          The following cases exemplify our
County Sheriff’s Office on a bur-       investigative activity in this area.
glary charge. This fugitive had 13
prior arrests and 5 prior convic­                Our Houston CDI team
tions, including one for homicide.               investigated a woman
With assistance from our agent, the              who faked mental impair­
fugitive was arrested in June 2001.              ments in order to receive
                                        Social Security disability benefits.
SSA continues to pursue matching        During a continuing disability
agreements with the balance of the      review (CDR) the woman alleged
States that do not enter their felony   she was a slow learner, unable to
warrant data into NCIC. We con­         drive a car, take a bus or subway
tinue to work with SSA to further       because she might get lost. The
refine and enhance the automated        DDS referred the case for investiga­
process.                                tion due to inconsistencies between



                                                                                Significant Activities
6                                               SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                         her allegations and the fact that the             Based on a referral from
                         local Social Security office discov­              medical examiners, our
                         ered that she was employed as a                   St. Louis CDI team investi­
                         certified respiratory therapist at a              gated a man who faked
                         local hospital. Our CDI investiga­       physical disabilities to apply for

                         tion revealed that she possessed a       Social Security disability benefits. 

                         valid Texas driver’s license and         The man alleged he was unable to 

                         drove her own vehicle to work            work because of a heart condition 

                         every day. The woman’s benefits          and claimed that his left arm and 

                         were terminated.                         leg were paralyzed, and that he 

                                                                  must use a wheelchair at all times. 

                                  Our Chicago CDI team
                                  investigated a woman that       CDI investigators observed the 

                                  faked physical impair­          man walking from his home to a 

                                  ments to apply for Social       car unassisted, and also observed 

                         Security disability benefits. Our        him using a wheelchair when 

                         investigation confirmed that the         attending a medical appointment. 

                         woman had been receiving disabil­        When the man subsequently 

                         ity benefits since February 1976         returned to his residence, investiga­

                         under her original Social Security       tors observed him getting out of the 

                         number (SSN) and worked from             vehicle unassisted and “hopping” 

                         1979 to 1997 under an assumed            up onto his front porch with the 

                         SSN. The woman’s benefits were           full use of his left arm and leg. The 

                         terminated and her new applica­          man’s claim was denied.

                         tion under the assumed SSN was
                         denied. She was also ordered to          The table on the following page 

                         pay $119,797 restitution to SSA.         outlines our CDI project statistical

                                                                  accomplishments for FY 2001. The 

                                   Based on an anonymous          table does not include results for

                                   tip, our Oakland CDI team      the Boston team because it just 

                                   investigated a man who         became operational on

                                   faked physical impair­         September 10, 2001. 

                         ments to file for Social Security dis­
                         ability benefits. The man alleged
                         disability due to paralysis of both
                         legs. CDI investigators observed
                         him walking, standing, sweeping,
                         and bending at the waist. They also
                         observed the man and his wife as
                         they arrived for a medical examina­
                         tion. His wife pulled a wheelchair
                         out of the trunk and prepared it for
                         him. The subject climbed into it
                         without assistance and rolled him-
                         self into the doctor’s office. The
                         man’s claim was denied.


Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                                          7



               Cooperative Disability Investigations Project Statistics
                                         April 1, 2001 through September 30, 2001
                               Allegations              Confirmed            SSA Recoveries                                      Non-SSA
                                                                                                      SSA Savings*
                                Received               Fraud Cases            & Restitution                                      Savings*

California                                  158                      80                 $4,959            $4,519,918              $3,313,049
Florida                                      39                      12                         -            $760,280                $330,844
Georgia                                     154                      98               $16,843             $6,208,091              $2,099,006
Illinois                                     56                        7             $128,413                $493,800                            -
Louisiana                                    85                      25               $23,914             $1,442,700                 $396,544
Missouri                                     71                      49               $70,227             $2,836,648                 $368,220
New Jersey                                   69                        8                        -            $640,975                            -
New York                                     65                      15               $33,864             $1,785,040              $3,527,490
Oregon                                       76                      58              $131,255             $3,301,366              $1,929,873
Tennessee                                    39                      14                         -            $901,240                $374,452
Texas                                        63                      55                         -         $3,149,290              $1,300,267
Virginia                                     85                        8                  $848               $418,574                 $33,895
             TOTALS                        960                     429             $410,323            $26,457,922             $13,673,640

  October 1, 2000
to March 31, 2001
         TOTALS                            874                     451               $92,796           $26,420,509             $12,016,803

  FY 2001 GRAND
          TOTAL                          1,834                     880             $503,119            $52,878,431             $25,690,443


*SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result of CDI investigations, using a formula
developed by the Office of Disability. When a CDI investigation supports the cessation of an in-pay case, the SSA program savings are calculated
by multiplying the actual monthly benefit times 60 months. Non-SSA savings are also projected over 60 months whenever another governmen­
tal program withholds benefits as a result of CDI investigations, using estimated or actual benefit amounts documented by the responsible
agency.




                                                                                                                     Significant Activities
8                                               SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01



                         Fight Against Senior                     gators worked with Department of
                                                                  Justice (DoJ) lawyers to expose, and
                         Scams and False                          subsequently terminate, a series of
                         Statements                               nationwide scams aimed at senior
                         Pursuant to a delegation from the        citizens. We also managed to bring
                         Commissioner of Social Security,         14 companies into voluntary com­
                         OCIG administers the CMP                 pliance with Section 1140 of the
                         enforcement statutes. This author­       Act, through the judicious use of
                         ity allows OIG to impose CMPs            cease and desist letters.
                         against violators of sections 1140
                         and 1129 of the Social Security Act.     We report our FY 2001 accomplish­
                         Based on this delegation, we             ments and briefly describe a few of
                         drafted and published regulations,       our many successful cases below.
                         trained legal and investigative staff
                         and built an infrastructure that         Misleading Advertising Case
                         included placing attorneys in sev­       Highlights
                         eral OI Field Divisions to guarantee
                         the success of this program.             Senior citizens should exercise
                                                                  great caution when responding to
                                                                  solicitations promising additional
                         Section 1140 of the Act -                benefits from SSA or the govern­
                         Misleading Advertising                   ment.

                         Section 1140 prohibits the use of                  One investigation con-
                         SSA’s program words, letters, sym­                 firmed that over 25,000
                         bols, or emblems in advertise­                     individuals, including res­
                         ments or other communications in                   idents of nearly every
                         a manner that falsely conveys            State, had been duped by anony­
                         SSA’s approval, endorsement, or          mous hoax flyers. Two distinct fly­
                         authorization. Each misleading           ers were widely distributed to the
                         communication subjects the viola-        elderly and falsely promised recipi­
                         tor to a maximum $5,000 penalty.         ents that they would receive money
                                                                  from the government if they mailed
                         Our nationwide enforcement               information to a post office box
                         efforts in this area send a clear mes­   listed on the flyer. One flyer prom­
                         sage to those companies who              ised $5,000 pursuant to a fictional
                         deceive senior citizens under Social     “Slave Reparations Act.” The sec­
                         Security’s good name. Tricking           ond promised an unwarranted
                         seniors into providing sensitive         lump sum payment or an increase
                         personal data, under the guise of        in SSA benefits.
                         Social Security-related services, is
                         both reprehensible and illegal.          Both required the recipient to pro-
                                                                  vide sensitive personal informa­
                         Employing a variety of novel legal       tion such as name, address,
                         and investigative techniques, a          telephone number, SSN, and date
                         team of our attorneys and investi­       of birth. Many elderly Americans


Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                                    9


were so thoroughly confused by             regarding government look-a-like
the flyers, that they sent copies of       documents that appeared to be
identity documents, including              from SSA.
Social Security cards, drivers
licenses, birth certificates, and mili­    The government’s case alleged that
tary papers to the address on the          these companies sent misleading
flyers. By falsely promising addi­         solicitations that used terms such as
tional Social Security payments, the       “Social Security Supplement Pol-
anonymous mailings tricked them            icy” or “2001 Benefit Update,”
into parting with coveted personal         when in reality the solicitations
information.                               were meant to entice senior citizens
                                           to provide sensitive personal infor­
          Based on a series of             mation. The defendant companies
          enforcement actions              would then sell this data to private
          brought by OIG in Texas,         insurance companies and/or
          several companies were           agents for up to $16 for each
ordered to stop sending deceptive          senior’s reply. The data purchasers
Social Security-related advertise­         would then contact the seniors and
ments, primarily to senior citizens.       pitch various products such as
Acc-U-Lead, Inc., United States            burial insurance and other related
Senior Services, Inc., Mass Mail           policies.
Media, Inc. and Lead Marketing
Alliance, all Texas companies, were        As a result of such deceptive prac­
ordered to cease such mailings. The        tices, the companies generated sub­
founders were also directed to pay         stantial revenues over several years
penalties of $200,000 to SSA. These        from the sale of this sensitive per­
payments were part of a settlement         sonal information, unwittingly pro­
in a case brought by our office and        vided by seniors.
the U.S. Attorney’s Office (USAO)

                       Misleading Advertising Section 1140 Statistics
                                 October 1, 2000 through   April 1, 2001 through      FY 2001
                                     March 31, 2001        September 30, 2001      GRAND TOTALS

 Complaints Received                        18                       42                   60

 New Cases Opened                           15                       11                   26

 Cases Closed                               17                       15                   32

                  No Violation              9                        8                    17

         Voluntary Compliance               7                        7                    14

        Settlement Agreement          1 case /$50,000                 -             1 case /$50,000

          Penalty/Court Action             0/0                2 cases /$795,000    2 cases /$795,000

 Hearings Requested                         0                        0                    0



                                                                                   Significant Activities
10                                              SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                         Section 1129 of the Act -                False Statements Case
                         False Statements                         Highlights

                                                                            We recently settled a case
                         Section 1129 prohibits persons from                against a man who created
                         making false statements or repre­                  and used several different
                         sentations of material facts in con­               identities and SSNs for the
                         nection with obtaining or retaining      purpose of acquiring Social Secu­
                         benefits or payments under titles II     rity benefits. From 1974 through
                         or XVI of the Act. After consulta­       1998, he improperly collected over
                         tion with DoJ, we are authorized to      $250,000 in Social Security benefits.
                         impose penalties of up to $5,000 for     Following a thorough and lengthy
                         each false statement or representa­      investigation by our Los Angeles
                         tion, as well as an assessment of up     Field Division, the man was incar­
                         to twice the amount of any result­       cerated and ordered to pay full res­
                         ing overpayment.                         titution to SSA in the amount of
                                                                  $262,279. We then initiated a CMP
                         Our enforcement efforts have been        action which netted a $20,000 settle­
                         enhanced as our investigative orga­      ment.
                         nization matures. Using our CMP
                         enforcement tools, we have                        In another case, we
                         imposed over $2 million in penal-                 received an allegation that
                         ties since FY 1998. Congress contin­              a woman used false infor­
                         ues to introduce new legislation                  mation to apply for SSI
                         that would expand CMP authority.         and Social Security benefits. Our
                                                                  investigation found that the
                         The following table and cases high-      woman used false identity docu-
                         light our FY 2001 results.


                                          False Statements Section 1129 Statistics
                                                October 1, 2000      April 1, 2001       FY 2001
                                                   through             through            Grand
                                                March 31, 2001    September 30, 2001      Totals

                          Cases Referred             114                 110               224
                          from OI

                          Cases Initiated             37                 34                 71

                          Cases Closed                64                 68                132

                          Penalties and            $606,679            $95,796           $702,475
                          Assessments

                          Number of                   12                  1                 13
                          Hearings
                          Requested



Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                                11


ments, marriage certificates, and a      We will continue to explore the fea­
false SSN to improperly obtain ben­      sibility of these partnerships in
efits. This case was never crimi­        other areas of the country in sup-
nally charged, however, we               port of OI’s investigative efforts
imposed a $20,000 CMP against her        and in furtherance of the IG’s statu­
for the false statements she made to     tory mission.
SSA.
                                         Ombudsman Program
Partnership with U.S.                    During this reporting period, we
Attorneys                                created an ombudsman office to
To further our shared goals within       provide another communications
the OIG, we have placed attorneys        channel for all OIG employees. This
in our field divisions. One of these     program provides a confidential
attorneys took on additional work        and impartial alternative for assist­
as a Special Assistant U.S. Attor­       ing OIG employees with informal
ney, working with the USAO in            complaint resolution, problem
Arizona to prosecute crimes against      solving, and internal communica­
SSA that the U.S. Attorney does not      tions issues.
have sufficient resources to pursue.
                                         We are committed to providing our
That partnership has already             employees a work environment in
resulted in the criminal prosecution     which they are treated fairly and
of 13 individuals who had commit­        impartially and one in which a
ted fraud against SSA programs. To       mutual trust exists between
date, six of these individuals have      employees and management. The
pleaded guilty and been sen­             creation of an Ombudsman Pro-
tenced. Many received periods of         gram reflects our continuing inter­
incarceration and all were ordered       est in fostering an environment in
to pay restitution to SSA in the total   which all employees are able to
sum of $155,466.                         work to their full potential without
                                         workplace impediments.
The other seven have pleaded
guilty and are awaiting sentencing,      Coordination of External
and additional cases will soon be
brought before the Grand Jury in
                                         Inquiries
Phoenix.                                 Within our OEO, the External
                                         Affairs Division (EAD) administers
In addition, we have entered into a      OIG’s public affairs, media, and
similar partnership with the USAO        interagency activities; coordinates
for the Central District of California   responses to congressional requests
in Los Angeles, and are in the pro­      for information; and communi­
cess of preparing cases for the          cates OIG’s planned and current
Grand Jury there, as well.               activities and their results to the
                                         Commissioner and Congress.



                                                                                 Significant Activities
12                                                 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                             EAD works in partnership not only      victims and witnesses. This is
                             with OI staff, but with OA’s Quick     where our investigative process
                             Response Team. This Team per-          begins. As AMD receives allega­
                             forms short-duration, time-sensi­      tions, they are carefully reviewed to
                             tive projects that address requests    determine the most appropriate
                             from Congress, SSA management,         course of action, such as being
                             other Federal agencies, SSA benefi­    referred to our OI Field Divisions,
                             ciaries as well as their representa­   other components of OIG, other
                             tives, and members of the public.      law enforcement agencies, or other
                                                                    program or policy components
                             During FY 2001, EAD responded to       within SSA.
                             159 requests from congressional
                             offices and other groups. EAD also     Not only does AMD staff provide a
                             responded to another 124 requests      vital service to our Field Divisions
                             from members of the media and the      by preparing allegations for inves­
                             general public.                        tigation, they also assist SSA in
                                                                    identifying overpayments. During
                                                                    FY 2001, AMD began tracking over-
                             SSA OIG Fraud Hotline                  payments posted by SSA in its sys­
                             Our Allegation Management Divi­        tem of records. We determined that
                             sion (AMD) operates the SSA OIG        SSA posted over $3.9 million in
                             Fraud Hotline and has made great       overpayments as a result of allega­
                             strides since its inception in the     tions the Hotline forwarded to SSA
                             early days of the OIG.                 for further development.

                             During the past year, AMD imple­       As illustrated in the following
                             mented a number of internal            charts, reports of SSN misuse and
An AMD program
specialist attending to an   improvements that increased its        identity theft crimes comprise more
allegation made to the       ability to receive and process alle­   than half of the allegations
SSA OIG Fraud Hotline.
                             gations. These improvements            received. Due to the high interest in
                             included an upgraded telephone         this area, the Fraud Hotline con­
                             system along with more efficient       tains a separate message option for
                             methods of handling allegations.       callers who wish to report SSN mis­
                             As a result, the number of tele­       use. This message provides callers
                             phone calls answered by program        useful information about protecting
                             specialists increased from 90,159 in   their SSN and is offered 24 hours a
                             FY 2000 to 94,886 in FY 2001. In       day, 7 days a week, as are all Fraud
                             addition, AMD received 26,401          Hotline message options.
                             pieces of correspondence; most of
                             which were internet communica­         During business hours, program
                             tions.                                 specialists are available to speak
                                                                    with callers wishing to report alle­
                             AMD program specialists are            gations of SSN misuse and identity
                             trained to take complaints from        theft. These allegations are referred
                             those who contact our hotline and      to the Federal Trade Commission
                             conduct telephone interviews of        (FTC) for inclusion in the FTC Iden-


Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      13


tity Theft Data Clearinghouse, a              quarters and field divisions, includ­
national database available to other          ing the SSA OIG fraud hotline.
law enforcement agencies. In addi­
tion to information on SSN misuse,            Overall for FY 2001, OI responded
the Fraud Hotline’s 800 number                to 115,101 allegations received via
also provides message options for             telephone, correspondence, fax, or
reporting general fraud and fraud             email. The allegations that the Hot-
committed by representative pay­              line receives, plus the allegations
ees. Information about reporting              received by our OI field divisions,
fraud is also available to the public         come from a variety of sources and
on our website at www.ssa.gov/                cut across SSA programs as shown
oig.                                          on the following page.

Investigative
Accomplishments
The following tables represent the
collective efforts of our OI head-

                                       INVESTIGATIVE STATISTICS
                                          October 1, 2000           April 1, 2001
                                                                                          FY 2001
                                             through                  through
                                                                                       GRAND TOTALS
                                          March 31, 2001         September 30, 2001

 Allegations Received                                53,742                  61,359               115,101
 Cases Opened                                         4,799                    5,966               10,765
 Cases Closed                                         4,657                    4,979                9,636
 Arrests/Indictments                                  1,460                    1,272                2,732
 Total Judicial Actions                               1,866                    2,434                4,300
                Criminal Convictions                    807                     607                 1,414
                          Civil/CMP                         43                   29                     72
       Illegal Alien Apprehensions                      353                     303                   656
    Fugitive Felon Apprehensions                        663                    1,495                2,158




                                                                                       Significant Activities
14                                                           SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01



                                                      FUNDS REPORTED
                                             October 1, 2000 through                                 April 1, 2001 through
                                                 March 31, 2001                                      September 30, 2001

                                        SSA Funds                Non-SSA Funds*                SSA Funds              Non-SSA Funds*

 Scheduled Recoveries                         $9,239,876                   $186,558                $15,476,466               $3,212,819
 Fines                                          $283,253                   $355,772                    $100,267                 $260,422
 Settlements/Judgments                        $2,197,895                      $5,000                $1,602,914                   $51,829
 Restitution                                  $9,193,191               $21,004,880                  $6,077,936              $15,056,522
 Estimated Savings                           $73,626,888               $12,974,928               $108,035,518               $22,785,684
 TOTALS                                    $94,541,103               $34,527,138                $131,293,101              $41,367,276

 GRAND TOTAL                                       $129,068,241                                          $172,660,377

 FY 2001 TOTAL                                                               $301,728,618
 *Non-SSA Funds represent monies attributed to other government organizations and financial institutions that benefit from the results of our
 investigative work. All figures include funds reported for civil actions.




             Allegations Received                                             Allegations Received
                 by Category                                                       by Source
                                         FY 2001                                                       FY 2001
                                       Grand Totals                                                  Grand Totals

     SSN                                         65,220                   Private Citizens                    65,038

     SSI Disability                              19,737                   Anonymous                           22,757

     Disability Insurance                        17,408                   SSA Employees                       12,153

     Old Age and Survivors                                                Law Enforcement                       9,920
                                                   9,014
     Insurance
                                                                          Public Agencies                       2,953
     Other                                         2,296
                                                                          Beneficiaries                         2,280
     SSI Aged                                        888
                                                                                         TOTAL               115,101
     Employee                                        538

                         TOTAL                  115,101




Significant Activities
SSA OFFICE OF THE INSPECTOR GENERAL                                                             15



Significant Management
Issues Facing SSA
Each year we assess the most sig­      Below we discuss each of our criti­
                                                                               Focusing
nificant management issues facing      cal FY 2001 management issues and
                                                                               attention on
SSA. This process is valuable in       our related audit and investigative
                                                                               critical
focusing congressional attention on    work.
                                                                               management
mission-critical management prob­
                                                                               areas allows us
lems and serves as a catalyst for      Issue 1: Critical                       to help SSA
action in resolving significant
issues across the Agency. These
                                       Information                             address
management issues are based upon       Infrastructure                          significant
                                                                               issues facing the
discussions that we have had with
                                       As technology advances and our          Agency.
SSA and acknowledges the
progress SSA has made over the         reliance on technology increases,
last year.                             the need for a strong information
                                       infrastructure becomes even more
Based on legislation and our audit     important. Along with the explo­
and investigative work, we have        sive growth in computer intercon­
determined that the ten most signif­   nectivity comes the ability to
icant management issues facing         disrupt or sabotage critical opera­
SSA in FY 2001 are:                    tions, read or copy sensitive data,
                                       and tamper with critical processes.
1.	 Critical Information Infrastruc­
    ture                               SSA’s current information security
                                       challenge is to understand system
2. Disability Redesign                 vulnerabilities and how to mitigate
3. Earnings Suspense File              them effectively. At SSA, this
                                       means making sure that its critical
4. Enumeration
                                       information infrastructure is
5. Fraud Risk                          secure.
6.	 Government Performance and
                                       Many challenges exist in obtaining
    Results Act
                                       and maintaining a secure critical
7. Identity Theft                      information infrastructure. One of
8. Representative Payee                these challenges is the rising expec­
                                       tations of the American public. The
9. Service to the Public               public expects SSA to provide ser­
10. Systems Security and Controls      vice comparable to private indus­
                                       try. This can only be accomplished
At the same time, we have worked       by keeping current with technolog­
on the significant management          ical changes.
issues for FY 2002, and transitioned
our work efforts into these areas in   Each year, we contract with a pub­
October 2001.                          lic accounting firm to audit SSA’s


                                                           Significant Management Issues Facing SSA
16                                              SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                          coverage of certain critical systems   Team (ECT) within our Critical
                          and applications. The firm’s find­     Infrastructure Division (CID) is
                          ings have included the need for        equipped to meet this challenge.
                          SSA to strengthen system password
                          requirements and establish a secu­     This Team provides technological
                          rity program for its internet envi­    assistance to our investigators as
                          ronment. We are also members of        well as investigative assistance to
                          several critical infrastructure pro­   the Agency in resolving intrusions
                          tection workgroups and commit-         into SSA’s network computer sys­
                          tees that provide guidance and         tems. In addition, this Team has
                          monitor the Agency’s progress in       gained the added responsibility of
                          this area.                             identifying and addressing the
                                                                 exploitation of SSA’s systems and
Our Electronic            Our audit and investigative work       electronic services.
Crimes Team               has disclosed weaknesses in SSA’s
provides                  critical information infrastructure    The computer forensic examina­
technological             efforts. We recently audited SSA’s     tions performed by ECT members
assistance to our         Systems Security Program, and our      have been critical in providing vital
investigators who         findings indicated SSA needed to       evidence to OI case agents. Our
are involved in           develop a more comprehensive           agents have cracked passwords
increasingly more         system security plan for the main-     allowing access to critical eviden­
complex                   frame and distributed computing        tiary information; recovered
investigations.           environments.                          deleted files and retrieved deleted
                                                                 images that revealed pertinent
                          It also needs to implement global      information concerning the devel­
                          email and other appropriate meth­      opment of false identification docu­
                          ods for broadcasting computer inci­    ments; and have successfully
                          dents, and develop sanctions for       reconstructed accounting records
                          users who cause system disrup­         for our auditors.
                          tions or share passwords. Other
                          reviews indicated that SSA needed      During this reporting period, we
                          to terminate access to critical pro­   participated in the following sys­
                          cesses when access is no longer        tems security issues meetings, sys­
                          needed and consistently perform        tems security conferences, and
                          required background checks of cer­     controls related activities:
                          tain SSA employees.
                                                                 ✔	   Testified before the House
                          As SSA embraces “electronic ser­            Committee on Ways and Means
                          vice delivery,” many of its func­           Subcommittee on Social Secu­
                          tions will be available on the              rity at a public hearing on Pro­
                          internet. With this transition, we          tecting Privacy and Preventing
                          expect that the occurrence of               Misuse of Social Security Num­
                          attempted internet fraud and other          bers. ECT demonstrated to the
                          criminal activity conducted in an           Subcommittee how the internet
                          automated environment will                  could be used to facilitate
                          increase. The Electronic Crimes             crimes involving SSN misuse.


Issue 1: Critical Information Infrastructure
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      17


✔	   CID has worked with SSA to          training were also completed, and
     identify key assets associated      several ECT staff provided first
     with threats, risks and vulnera­    responder training to our agents,
     bilities and developed mitiga­      other agency law enforcement
     tion plans.                         officers, and members of the
✔	   Continued to provide develop-       USAO.
     mental and instructional sup-
     port to the Security Specialties    During this reporting period, we
     Division, Federal Law Enforce­      also completed the following
     ment Training Center, Critical      reviews.
     Infrastructure Protection Train­
     ing Program.                        Review of SSA’s Critical
✔	   Assisted DoJ’s Office of Justice    Infrastructure Protection
     Programs, National Institute of     Program (Limited Distribution
     Justice in the development of a     Report)
     nationally publicized pamphlet
     entitled “Electronic Crime Scene            Our objective was to deter-
     Investigation - A Guide for First           mine the adequacy of SSA’s
     Responders.” ECT served as a                Critical Infrastructure Pro­
     technical resource on this                  tection Plan (CIPP) for its
     project.                            physical assets as it relates to Presi­
✔	   Worked with the Inspector Gen­      dential Decision Directive (PDD)
     eral Criminal Investigator          63. The President’s Council on
     Academy, to develop a curricu­      Integrity and Efficiency and Execu­
     lum for law enforcement train­      tive Council on Integrity and Effi­
     ing in a course entitled “First     ciency initiated a four-phase review
     Responder to Electronic Evi­        to determine the adequacy of the
     dence”.                             Federal Government’s critical infra­
✔	   Provided support to the             structure protection program in the
     National Infrastructure Protec­     context of PDD 63.
     tion Center as participants of
     the Inter-Agency Coordinating       The results of our review revealed
     Cell, which is compiled of gov­     that SSA has made significant
     ernment-wide membership and         progress in addressing the national
     provides investigative support      PDD 63 initiative. During the
     on a national scale.                review, we noted that the Agency
✔	   Provided support to the Joint       began to implement the recommen­
     Terrorism Task Force investi­       dations below. However, we fur­
     gating the World Trade Center       ther noted that SSA needs to
     and Pentagon attacks.               include more detailed information
                                         in its CIPP, identify interdependen­
Along with these accomplishments,        cies involving its critical physical
ECT staff completed 39 forensic          assets, and continue its efforts in
exams, requiring 930 hours of            completing vulnerability assess­
examination time. An additional          ments.
704 hours of initial and advanced


                                                                Issue 1: Critical Information Infrastructure
18                                                   SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                          We recommended that SSA:                   GISRA requires each agency to per-
                                                                     form an annual program review of
                          1.	 Update CIPP to include a time-         its information security plan and
                              line for incremental reviews of        requires the IG or the independent
                              SSA’s existing physical security       evaluator to perform an evaluation
                              policies and procedures.               of the agency’s security program
                                                                     and practices.
                          2.	 Develop and update CIPP to
                              incorporate implementation
                                                                     The impact of the information sys­
                              dates for inclusion of critical
                                                                     tem security weaknesses is increas­
                              infrastructure protection func­
                                                                     ing for several reasons. SSA is
                              tions in SSA’s strategic planning
                                                                     placing an even greater level of ser­
                              and performance framework.
                                                                     vices online, which increases SSA’s
                          3.	 Develop training goals for the         exposure for security risks to its
                              CIPP to ensure that it has the         systems. Also, SSA is placing a
                              personnel and skills necessary         greater reliance on technology to
                              to implement a sound infra­            accommodate the expected increase
                              structure protection program.          in workload and expected decrease
                          4.	 Identify SSA’s interdependen­          in staff. Technology changes so
                              cies with other Federal agencies       quickly that the individuals who
                              for its physical assets as defined     would exploit the information
                              in Project Matrix.                     security weaknesses are also gain­
                                                                     ing new means and opportunities
                          5.	 Continue performing vulnera­           to do so.
                              bility assessments for its critical
                              physical assets.                       In meeting its overall security pro-
                                                                     gram needs, our assessment found
                          Due to the sensitive nature of this        that SSA uses accreditations, which
                          audit, we cannot describe the              is the administrative process that
                          detailed findings of this report and       certifies that an application system
                          it is not available for distribution.      meets all security regulations and
                                                                     standards. It also uses program
                          SSA’s Compliance with the                  reviews and independent evalua­
                          Government Information                     tions to assess the performance of
                          Security Reform Act                        its security program. SSA does pro-
                                                                     vide security training to the indi­
                                Our objective was to evalu­          viduals with security responsibility
                                ate SSA’s compliance with            and considers information technol­
                                the Government Information           ogy (IT) security in the budget pro­
                                Security Reform Act1                 cess.
                          (GISRA).
                                                                     At the time of our assessment, the
                                                                     Agency had not developed specific
                                                                     performance measures. However,
                                                                     as of the date of this report, SSA
                              1. Public Law 106-398, Title X, sub-
                                 title G.                            advised that those measures would


Issue 1: Critical Information Infrastructure
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   19


be published as part of this GISRA      Insurance (DI) and SSI programs. 

report. Because these measures          In the 3-year period between

were not available during the           FYs 1991 and 1993, initial claims for 

assessment period, we could not         these benefits climbed from 2 to

speak to their effectiveness.           2.6 million. SSA has experienced 

                                        difficulty processing claims in a 

SSA has also not evaluated all of its   timely manner.

critical assets as required by the
Computer Security Act of 1987, which    As many as two-thirds of claimants 

requires each agency to establish a     who filed an appeal eventually

plan for the security and privacy of    received a favorable decision at the 

each Federal Computer System,           hearing level, which could indicate 

which is within or under the super-     potential problems with either ini­

vision of that Agency and has been      tial or appellate decisions and 

identified by the Agency as con­        raises questions about the fairness

taining sensitive information.          and efficiency of the process. SSA

                                                                               Audit staff frequently
                                        concluded that the best approach to
 meet with Agency
We also found that SSA does not         effectively respond to these prob­
 officials to discuss OIG’s
globally track IT security training     lems was to fundamentally over-
 recommendations.
taken by its security staff, and does   haul the way in which disability 

not itemize IT security costs by        claims are processed to decide 

projects.                               whether or not a claimant was eligi­

                                        ble for disability benefits.

We concluded that SSA generally
meets the requirements of GISRA;        To that end, SSA embarked on an 

however, there are opportunities        ambitious series of initiatives to

for the Agency to strengthen its        improve its accuracy and service. 

information security framework to       Its Disability Redesign Plan was 

ensure full compliance with GISRA       issued in September 1994. With its

and the information security-           redesign plan, SSA hoped to 

related laws and regulations that       achieve five goals that would 

provide the foundation for GISRA.       improve the process. The plan orig­

                                        inally included 83 initiatives to be

Due to the sensitive nature of this     accomplished over 6 years.

audit, we cannot describe our
detailed findings. This report is not   In a 1996 General Accounting

available for distribution.             Office (GAO) report, GAO con­

                                        cluded that SSA’s plan was overly 

Issue 2: Disability                     ambitious. At that time, SSA had 

                                        made little progress toward meet­

Redesign                                ing its goals, could not show posi­

                                        tive results, and faced difficulty 

SSA manages two large Federal           obtaining and keeping support of

programs that pay monthly bene­         some stakeholders. In response, 

fits to qualified individuals with      SSA issued a scaled-back redesign 

severe disabilities—the Disability      plan in February 1997, which 



                                                                             Issue 2: Disability Redesign
20                                                SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                            focused on eight key initiatives to     of eDib through various SSA steer­
                            be accomplished within 9 years.         ing committees and we will assess
                                                                    the success of these initiatives as
                            SSA’s current plan entitled, Social     they are implemented.
                            Security and Supplemental Security
                            Income Disability Programs: Manag­      During the reporting period, we
                            ing for Today, Planning for Tomorrow,   also conducted the following
                            was issued on March 12, 1999. The       audits.
                            plan had four broad goals: Improve
                            the Disability Adjudication Process;    Assessment of the Hearings
                            Enhance Beneficiaries’ Opportuni­       Process Improvement Plan
                            ties to Work; Safeguard the Integ­      Phase 1
                            rity of Disability Programs; and
                            Improve the Knowledge Base for                  The objective of our review
                            the Next Century.                               was to obtain employee
                                                                            assessments of the results
                            To improve the disability adjudica­             of the OHA implementa­
                            tion process, the 1999 plan             tion of Phase 1 of the Hearings Pro­
                            announced a 10-State prototype of       cess Improvement Plan (HPI).
                            modifications to the disability pro­
                            cess. In a January 10, 2001 report      We surveyed 1,326 employees in 37
                            entitled, Managing Social Security      Phase 1 Hearing Offices (HO). Our
                            Disability Programs: Meeting the        survey results showed that OHA
                            Challenge, SSA reported on the sta­     has an experienced workforce that
                            tus of the evaluation of the proto­     was trained before and after the
                            type and tentative plans for a          HPI Phase 1 implementation, and
                            national rollout.                       employees have an understanding
                                                                    of what is expected of them. Our
                            In August 1999, SSA published           survey results also showed that
                            plans to improve the hearings and       employees expressed some con­
                            appeals processes. SSA designed         cerns with the transition.
                            the Hearings Process Improvement
                            and the Appeals Process Improve­        We recommended and SSA agreed
                            ment plans to expedite Office of        to: (1) establish a timeframe by
                            Hearings and Appeals (OHA) pro­         which HOs should implement all
                            cesses for appealed cases and to        parts of the HPI Plan; (2) reassess
Auditors prepare to brief
Agency officials on their   reduce backlogs.                        training needs for nonmanagers
audit findings and                                                  and ensure they have an adequate
recommendations.
                            SSA began implementing its Elec­        understanding of OHA’s expecta­
                            tronic Disability (eDib) System in      tions under the HPI Plan; (3) re-
                            the Spring of 1999. The eDib Sys­       evaluate the staffing needs for tech­
                            tem is the Agency’s technological       nicians and clerical staff within
                            approach to creating a paperless-       each HO to maximize productiv­
                            disability claims process. We have      ity; and (4) perform an evaluation
                            been periodically monitoring the        of standing orders, or the lack of
                            electronic service delivery aspects     standing orders, in each office to


Issue 2: Disability Redesign
SSA OFFICE OF THE INSPECTOR GENERAL                                                              21


ensure employees have clear and            ized by providing a financial
uniform instructions from adminis­         incentive to medical providers
trative law judges within each pro­        who submit MER within 30
cessing group.                             days from the date of the
                                           request.
Medical Evidence of Record              3.	 Improve its oversight of the
Collection Process at State                 DDS MER collection process by:
Disability Determination                    (a) developing uniform MER
Services                                    data collection requirements for
                                            DDS, and (b) performing peri­
         The objectives of this
                                            odic evaluations of MER collec­
         review were to: (a) review
                                            tion processes and times at
         and assess the efficiency of       DDSs to develop best practices.
         the medical evidence of
record (MER) collection process at
                                        SSA agreed with our first recom­
State DDS, and (b) assess the DDS’
                                        mendation, but disagreed with rec­
ability to provide SSA with man­
                                        ommendations two and three.
agement data.

We found that the current MER col­      Issue 3: Earnings
lection times account for a consid­     Suspense File
erable portion of overall disability
claims processing times because the     An individual’s earnings are the
processes of requesting and receiv­     basis to calculate Social Security
ing MER are slow and labor-inten­       benefits. SSA establishes and main­
sive for both the DDS and the           tains a record of an individual’s
claimant’s treating source. As such,    earnings for use in determining an
the time it takes treating sources to   individual’s entitlement to benefits
respond to DDS requests for MER         and for calculating benefit payment
can vary from a few days to several     amounts.
weeks.
                                        The Earnings Suspense File (ESF)
We recommended that SSA:                primarily consists of wages
                                        employers report to SSA that are
1.	 Pursue options for improving        put into suspense because the name
    MER collection times at DDSs        and SSN do not match validation
    experiencing problems in            criteria within SSA’s systems.
    receiving MER within 30 days        Although SSA has reported it cor­
    from the date of the request.       rectly posts over 99 percent of all
    (This should include sharing        wages received, those wages that
    DDS best practices that have        cannot be posted to earners’
    been innovative in obtaining        accounts continue to accumulate in
    MER timely.)                        the ESF. Between Tax Years (TY)
2.	 Conduct a study to determine        1937 and 1999, the ESF grew to
                                        about $333 billion in wages repre-
    whether savings in consultative
    examination costs could be real­


                                                                     Issue 3: Earnings Suspense File
22                                                 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                             senting approximately 227 million      Some of the internal factors hinder­
                             wage items.                            ing efforts to reduce the ESF’s size
                                                                    include: (1) SSA has placed a higher
                             Suspended wage items continue to       priority on other automated sys­
                             grow, and there is a possible link     tems developments, and (2) SSA
                             between the number of suspended        has not linked available informa­
                             wage items and the growth of SSN       tion in its database to identify
                             misuse allegations and fraud. This     chronic “problem” employers who
                             concern not only affects SSA pro-      continually submit annual wage
                             grams but transcends to other Fed­     reports with multiple errors.
                             eral entities, such as the Internal
                             Revenue Service (IRS) and the          External factors include other Fed­
                             Immigration and Naturalization         eral agencies with separate, yet
                             Service (INS).                         related mandates, such as the IRS’s
                                                                    failure to sanction employers for
                             Each year about 21 million wage        submitting invalid wage data and
                             items have an invalid name and         INS’ complicated employer proce­
                             SSN combination and SSA, through       dures for verification of eligible
                             extensive computer matches and         employees.
                             manual efforts, is able to reduce
                             this number to around 6.5 to 7 mil-    In September 2000, SSA contracted
                             lion items. Additional edits on        with a national independent
                             invalid wage items can take up to 2    accounting firm to review the ESF
                             years.                                 and provide recommendations and
Investigators review                                                alternatives for the management of
earnings information as a
regular part of their case
                             Another concern is the additional      this file. The contractor provided
development.                 administrative cost required to        the final report to SSA on July 18,
                             match data to individual records to    2001 and an executive briefing was
                             correct invalid earnings informa­      held in August. SSA is currently
                             tion. In the past, SSA has noted it    considering the report’s recommen­
                             can cost as much as $300 to correct    dations.
                             an earnings item once it has gone
                             into suspense, compared to a cost      Our auditors issued the following
                             of only 50¢ if the earnings had been   reports related to the ESF during
                             reported correctly.                    this period.

                             SSA has developed a Tactical Plan      Force Processing of Magnetic
                             containing an overall strategy and     Media Wage Reports with
                             several projects designed to reduce    Validation Problems
                             the ESF’s rate of growth and size.
                             However, the changes called for in             The objective of our audit
                             the Plan are long-term, and several            was to review SSA’s man­
                             factors, both internal and external            agement oversight of force
                             to SSA, hinder the efforts with the            processing. During TYs
                             most potential to reduce the ESF’s     1996 through 1998, SSA increased
                             size and growth.                       the accuracy threshold for reported


Issue 3: Earnings Suspense File
SSA OFFICE OF THE INSPECTOR GENERAL                                                               23


wages from 10 percent to 50 per-        tify employers who have their
cent. Prior to this change, SSA had     wage reports force processed and
accepted wage reports if as much as     the number of times, and to pro-
90 percent of the wage items had        vide information on chronic prob­
name and SSN mismatches. In             lem employers to the IRS to impose
addition, the instructions for the W-   penalties. In the event the IRS fails
2 contain a penalty provision of $50    to impose such penalties, SSA
per error for submitting inaccurate     should consider a legislative pro­
name and SSN combinations.              posal to establish its own sanction­
                                        ing (penalty) authority.
If an employer fails to meet the
accuracy threshold after attempting     In its response, SSA noted that a
to correct the wage information,        management information system to
SSA will still process these wage       track force processing information
items, which SSA commonly refers        is no longer necessary since it had
to as “force processing.” SSA also      changed the name and SSN thresh-
warns the employer it will force        old to allow 95 percent of an
process the report one time only.       employer’s electronic wage reports
Despite these warnings, SSA con­        to be in error before SSA rejects the
tinued to force process wage            submission. By implementing this
reports for 285 employers during        policy, SSA virtually eliminated the
TYs 1996 through 1998; and 3,428        need for force processing, while
additional employers during TYs         allowing the Agency to more
1997 and 1998.                          readily identify, track, and work
                                        with employers having a high rate
We also found SSA had not identi­       of items with name and SSN mis­
fied these employers for the IRS to     matches.
assess monetary penalties of $50
per error. If assessed, this penalty    SSA also noted that it has improved
would have totaled approximately        the educational correspondence it
$8.5 million for the 285 employers      sends to employers with name and
that continued to submit W-2s with      SSN mismatches. Finally, the
incorrect names and SSNs for 3          Agency provided a list of 100
consecutive years. Since SSA per­       employers with the largest number
mits employer’s wage reports to be      of name and SSN match failures in
force processed over multiple           consecutive years to the IRS in
years, and the IRS has not assessed     August 2000. IRS expressed interest
penalties, there is no incentive for    in the listing but has not assessed
employers to improve their wage         penalties.
reporting accuracy and no
improvement to the overall wage         We believe SSA’s elimination of the
reporting system.                       50 percent threshold and its
                                        replacement with a 95 percent
Some of our recommendations to          threshold (of mismatched records)
SSA were to develop a manage­           leaves the Agency open to greater
ment information system to iden­        reporting errors and more sus-


                                                                      Issue 3: Earnings Suspense File
24                                             SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                       pended wages. For this reason, we          3.	 The employer’s flexible hiring
                       encourage SSA to maintain the 50               policy and weak internal con­
                       percent threshold.                             trols.
                                                                  4.	 The employer’s failure to use
                       Finally, SSA has been warning                  available SSA programs to ver­
                       employers about sanctions for sev­
                                                                      ify employee documents.
                       eral years without any real action
                       by the IRS. Elevating this language        SSA provides various programs to
                       without IRS follow-through will do         assist employers in preparing accu­
                       nothing to improve the quality of          rate wage reports, including a vol­
                       wage reporting or reduce the ESF’s         untary name and SSN verification
                       size and growth. It is for this reason     program, the Employee Verifica­
                       that we continue to encourage SSA          tion Service (EVS), that could have
                       to seek its own sanctioning author­        significantly reduced the amount of
                       ity if efforts with the IRS fail to pro­   suspended wages for the profiled
                       duce results.                              employer. The employer was either
                                                                  unaware of these verification pro-
                       Management Advisory Report -               grams or reluctant to use them. In
                       Review of Service Industry                 the case of the profiled employer,
                       Employer with Wage Reporting               we estimate that up to $10.2 million
                       Problems                                   in suspended wages could have
                                                                  been prevented or at least reduced
                               The objective of our review        in TY 1997 had the employer used
                               was to understand possible         EVS.
                               reasons why employers
                               submit erroneous wage              SSA even has plans to expand EVS
                       reports. To do this, we performed          into an online system for employ­
                       an in-depth case study of an               ers, which SSA has estimated could
                       employer who continually submit­           prevent up to 200,000 items from
                       ted large numbers of invalid wage          going into suspense annually. We
                       reports to SSA. Specifically, we           estimated that this online EVS
                       determined the causes of this              (OEVS) could save up to $6 million
                       employer’s wage reporting errors           annually in administrative costs
                       and irregularities; and identified         since SSA would avoid the cost of
                       steps that SSA has taken to reduce         reinstating these 200,000 wage
                       such occurrences.                          items.
                       We identified several factors that         SSA is also evaluating pilot verifi­
                       contributed to the volume of this          cation programs with the Office of
                       employer’s suspended wages:                Child Support Enforcement (OCSE)
                                                                  and INS to see how they can assist
                       1. The transient nature of the             employers. Both the OCSE and INS
                          employer’s workforce.                   pilots, if proven successful, have an
                       2.	 The use of invalid documents           advantage over the current volun­
                           by workers when they were              tary EVS program for registered
                           hired.                                 employers since they provide more


Issue 3: Earnings Suspense File
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      25


timely feedback to large employers.      SSA took exception to the state­
As of the end of our review, the         ments and recommendations made
results of the OCSE pilot were           in the report because they were
under evaluation, while the INS          based on the examination of a sin­
pilot is scheduled for completion in     gle employer. SSA believes the
November 2001.                           most significant cause for wage
                                         reporting errors is the transient
We made the following additional         nature of the employers’ workforce
recommendations to SSA to                and noncompliance on the part of
improve oversight of employers           employers. As a result, SSA is not
with large numbers of suspended          comfortable in predicting a signifi­
wage items and provide them with         cant reduction of items in the ESF
sufficient tools to detect erroneous     as a result of its verification pro-
data:                                    grams.

1.	 Until the use of EVS is manda­       SSA also stated that OEVS has
    tory, ensure Employer Services       already been put on a priority
    Liaison Officers increase aware­     track, but disagreed with our
    ness of EVS among those              assessment of administrative costs
    employers who have submitted         savings related to the use of OEVS.
    large numbers of suspended           SSA noted it will recalculate the
    wage reports, including those        amount to provide a better cost per
    identified in our earlier audit of   reinstatement.
                                                                                   Auditors discuss the
    the top 100 employers in the                                                   findings from a current
    ESF.                                 We believe the service industry           audit assignment.

2.	 Prioritize the implementation of     employer review builds upon our
                                         work related to the ESF and dem­
    the ESF Tactical Plan proposal
    to provide OEVS to employers,        onstrates that significant problems
    which will assist in identifying     exist in the service industry, specifi­
                                         cally employers with a transient
    invalid documents submitted
    by new hires while also pre-         workforce. SSA agrees this tran­
                                         sient workforce is a significant
    venting up to 200,000 items
                                         cause for wage reporting errors.
    from going into the ESF and
    reducing overall ESF adminis­
                                         In addition, our recommendations
    trative costs by as much as $6
                                         related to the issues faced by this
    million, annually.
                                         employer will further SSA’s efforts
3.	 Continue to pursue and/or            to reduce contributions to the ESF.
    expand upon viable options to        In fact, SSA concurs with the sub-
    the current EVS procedures,          stance of our recommendations,
    such as the OCSE and INS             such as educating employers,
    pilots, to broaden employer par­     implementing OEVS, and pursu­
    ticipation in SSA’s name/ SSN        ing viable options to the current
    verification projects.               EVS.




                                                                        Issue 3: Earnings Suspense File
26                                           SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                       In terms of administrative costs, we    as a “breeder document” to obtain
                       welcome SSA’s commitment to             additional false identification docu­
                       determine a new cost per reinstate­     ments. Therefore, detecting fraudu­
                       ment. We continue to believe sig­       lent documents before SSNs are
                       nificant cost savings could be          assigned is an essential step in
                       realized through timely implemen­       reducing the number of identity
                       tation of OEVS.                         fraud crimes.

                       Issue 4:                                Three separate issues combine to
                                                               undermine the integrity of the enu­
                       Enumeration                             meration process, and public confi­
                                                               dence in the Social Security system:
                       One of the key elements SSA
The SSN is the                                                 application vulnerabilities, fraudu­
                       employs to effectively administer
key element                                                    lent SSNs as breeder documents,
                       the Nation’s Social Security system
that allows                                                    and fraudulent SSNs for employ­
                       is the SSN. SSA refers to the process
SSA to                                                         ment.
                       of assigning SSNs to individuals as
administer the         enumeration. The enumeration
Nation’s Social                                                To adequately combat these enu­
                       area also includes issuing replace­
Security                                                       meration challenges, SSA must
                       ment cards to people with existing
programs                                                       employ effective front-end controls
                       SSNs and verifying SSNs for             in its enumeration process. Like-
                       employers, State agencies, and
                                                               wise, additional techniques, such as
                       other Federal agencies. In FY 2001,
                                                               data mining, biometrics, and
                       SSA issued over 18.4 million origi­     enhanced systems controls are criti­
                       nal and replacement SSN cards.          cal in the fight against identity
                                                               theft.
                       The magnitude of SSA’s enumera­
                       tion area and the importance            Some of our proposals include:
                       placed on SSNs in today’s society
                       provides a tempting motive for          �	   Customers should provide
                       many unscrupulous individuals to             appropriate identification when
                       fraudulently acquire an SSN and              doing business with SSA.
                       use it for illegal purposes. Given      �	   SSA should obtain independent
                       today’s technological advances,              verification from INS for noncit­
                       motivated individuals can counter­           izen evidentiary documents.
                       feit official documents with surpris­   �	   Develop system applications to
                       ing accuracy.                                interrupt the enumeration pro­
                                                                    cess in certain suspect circum­
                       As noted by Congress and other               stances.
                       Federal agencies, the SSN plays an      �	   Educate SSA staff about coun­
                       integral role in the commission of           terfeit documents.
                       identity fraud crimes. Unfortu­         �	   Continue public policy discus­
                       nately, once an SSN is assigned,             sions through interaction with
                       regardless of whether it is later            DoJ, the Department of Trea­
                       learned the SSN was fraudulently             sury, and the FTC.
                       obtained, the number can be used



Issue 4: Enumeration
SSA OFFICE OF THE INSPECTOR GENERAL                                                                 27


�	   SSA should consider including         particular time period. The CIRP
     SSN fraud and misuse (identity        referral process was responsible for
     theft) as a “Key Initiative” in its   initiating an investigation in Flor­
     Strategic Plan.                       ida that identified over 225 false
                                           identities that a group of conspira­
We believe SSA has a duty to the           tors created over the past year. The
American public to safeguard the           investigation revealed that this
integrity of SSNs. In response to          group operated an identity fraud
two previous reports we issued,            enterprise and presented hundreds
SSA confirmed its strong commit­           of false applications with counter­
ment to eliminating opportunities          feit identity documents to
for fraud within the enumeration           SSA for new or replace­
process. We commend many of                ment SSN cards. The group
SSA’s initiatives to address these         then sold these cards to
vulnerabilities. However, we con­          third parties to facilitate
tinue to believe further action is         other criminal offenses.
necessary.
                                           Our auditors also issued the fol­
To promote further fraud preven­           lowing audits related to the integ­
tion activities, OI is working with        rity of the enumeration process this
SSA to develop systems applica­            period.
tions to interrupt the enumeration
process in certain suspect circum­         Performance Measure Review:
stances and to further educate SSA         Reliability of the Data Used to
staff to detect counterfeit docu­          Measure the Percentage of SSNs
ments. For example, based on rec­          Issued Accurately
ommendations from prior OA
reports, we are working on a                       The objective of this review
project with SSA to improve its                    was to assess the reliability
Modernized Enumeration System.                     of the performance data
                                                   SSA used to measure
Part of this project is to develop a       progress in achieving its goal of
procedure to detect fraud in the           issuing SSN cards accurately.
application process to identify par­
ents who enumerate an improbable           We found that SSA’s FY 1998 SSN
number of children within a set            accuracy rate of 99.8 percent was
time frame. When this project is           reliable. However, this rate does
operational, SSA will stop the SSN         not include all errors. It excludes
card issuance process and refer the        major errors, such as inaccurate
case to OI for investigation.              names, dates of birth, and coding
                                           errors. High-risk items are not ade­
OI is also working with SSA to             quately represented in SSA’s sam­
refine the Comprehensive Integrity         ple used to compute the SSN
Review Program (CIRP) module               accuracy rate. Also, in identifying
that identifies multiple SSN cards         erroneous SSNs, SSA does not test
being sent to an address within a


                                                                                   Issue 4: Enumeration
28                                             SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                       the validity of evidence presented        under the EAB program; and if
                       by SSN applicants.                        SSA’s internal controls adequately
                                                                 protect the integrity of the process.
                       We recommended that SSA take
                       the following corrective actions to       We found that:
                       improve the reporting and measur­
                       ing of future SSN accuracy rates:         �	   SSA is vulnerable to potential
                                                                      error and/or misuse due to lack
                       1.	 Report the major error rate and            of segregation of duties within
                           its definition in the annual per­          hospitals’ birth registration
                           formance plan.                             units.
                                                                 �	   SSA assigned multiple SSNs to
                       2.	 Redesign the sampling method­
                                                                      newborns.
                           ology to include more SSNs
                                                                 �	   Untimely transmission of birth
                           with a higher risk for error.
                                                                      records diminishes the effec­
                       3.	 Test the validity of birth certifi­        tiveness of the EAB process.
                           cates and noncitizen documen­
                           tary evidence presented with          We concluded that the birth regis­
                           the SS-5 by obtaining indepen­        tration data provided to SSA by the
                           dent verification from both the       test hospitals and BVSs was gener­
                           applicable State Bureau of Vital      ally accurate and reliable. How-
                           Statistics, and the INS, respec­      ever, weaknesses exist in controls
                           tively.                               and operations that need to be
                                                                 addressed to reduce the EAB pro-
                       SSA agreed that the definition of         gram’s vulnerability to potential
                       the measure in the Agency’s perfor­       error and misuse and to enhance
                       mance plan should be clarified to         program efficiency.
                       reflect that errors not affecting the
                       accuracy of the issued numbers are        We recommended that SSA:
                       excluded from the accuracy calcu­
                       lation. SSA agreed to make this           �	   Reinvest some of the savings
                       clarification and to also include              realized by the EAB program
                       explanatory language in its FY 2001            and provide necessary funding
                       Annual Performance Report.                     for periodic independent BVS
                                                                      reconciliations of registered
                       Audit of Enumeration at Birth                  births with statistics obtained
                       Program                                        from hospitals and periodic ver­
                                                                      ification of the legitimacy of
                               We assessed and identified             sample birth records obtained
                               control weaknesses in the              from hospitals.
                               Enumeration at Birth (EAB)        �	   Enhance its duplicate record
                               process. Our objectives                detection and prior SSN detec­
                       were to determine whether partici­             tion routines to provide greater
                       pating hospitals and Bureaus of                protection against the assign­
                       Vital Statistics (BVS) provide SSA             ment of multiple SSNs.
                       accurate and reliable information


Issue 4: Enumeration
SSA OFFICE OF THE INSPECTOR GENERAL                                                                  29


�	   Instruct field office (FO) person­   include the detection of beneficiary
     nel to exercise greater care         deaths and the monitoring of medi­
     when resolving enumeration           cal improvements for disabled ben­
     feedback messages generated          eficiaries.
     by the system.
�	   Cross-reference multiple SSNs        For SSA to fulfill its role as a stew­
     identified in the review.            ard of public dollars, it is impera­
�	   Continue to monitor the timeli­      tive that the universe or magnitude
     ness of BVS submissions and          of fraud be identified by establish­     Some
     work with those BVSs having          ing a baseline from which to esti­       individuals
     difficulty complying with the        mate potential dollars lost to fraud,    target SSA’s
     timeframes specified in the con-     such as those identified by the          programs and
     tracts.                              banking and insurance industry.          fraudulently
                                                                                   obtain benefits
SSA agreed with all of our recom­         This issue area focuses on a subset      for their own
mendations.                               of the overall fraud universe, spe­      personal gain.
                                          cifically, on SSI eligibility fraud,
Issue 5: Fraud Risk                       disability fraud, payments made to
                                          deceased individuals and SSA
As SSA’s payments to beneficiaries        employee fraud. For information
                                          on identity theft and related SSN
approaches half a trillion dollars
                                          misuse fraud, please see Issue 7.
annually, its exposure to fraud
increases proportionately. Quite          Other OIG fraud prevention efforts
                                          are discussed in our Significant
simply, many unscrupulous indi­
                                          Activities section of this report.
viduals target SSA’s programs to
secure funds for their own personal
gain. OIG employees actively fight        SSI Eligibility Fraud
fraud in the SSI program, Old-Age,
                                          During FY 2001, our New York
Survivors, and Disability Insur­
                                          Field Division accelerated Project
ance (OASDI) programs, SSN
                                          Re-Run focusing on 332 subjects
integrity area, and SSA employee
                                          identified in the FY 2000 New York
fraud area through a wide range of
                                          Eligibility Projects who may have
activities.
                                          concealed foreign travel and assets
Fraud is an inherent risk within all      during their redetermination inter-
                                          views.
of SSA’s core business processes—
enumeration, earnings, claims and
                                          Research conducted at the Depart­
post-entitlement, as they each con­
                                          ment of Treasury Financial Crimes
tain vulnerabilities that provide
                                          Enforcement Network (FinCEN)
individuals with the opportunity to
                                          was instrumental in the success of
defraud third parties, SSA and/or
                                          this project. Our staff working with
its beneficiaries and recipients. Our
                                          FinCEN representatives conducted
focus on fraud risk is based on pro-
                                          financial and foreign travel queries
gram eligibility factors that are mis­
                                          on 6,400 subjects from the prior
represented to attain or maintain
                                          New York Projects narrowing the
eligibility. Other key risk factors


                                                                                     Issue 5: Fraud Risk
30                                           SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                      field to the suspect group of 332.      ularly conduct disability case inves­
                      During FY 2001, 227 cases were          tigations. We highlight several of
                      opened identifying over $1 million      these cases below.
                      in overpayments and $4.7 million
                      in projected savings.                   Disability Case Highlights

                      Typically, the cases involve SSI                  Based on a referral from
                      recipients who reported no travel                 SSA’s Marietta, Georgia
                      outside the United States (U.S.)                  office, our Atlanta Field
                      during an SSA redetermination                     Division conducted an
                      interview. Subsequent research          investigation of a Social Security
                      through FinCEN disclosed that the       disability beneficiary who failed to
                      subjects made multiple trips out-       report his employment. The inves­
                      side the U.S., including trips just     tigation determined that the man
                      prior to the redetermination inter-     was employed as a truck driver,
                      view.                                   and that based on his work activity
                                                              he was not entitled to receive bene­
                      Follow-up investigation confirmed       fit payments from October 1990
                      that recipients were out of the         through May 1998. He was incar­
                      country for over 1 month, and in        cerated and ordered to pay
                      some instances, a year and beyond.      $112,003 restitution to SSA.
                      This information is reported to
                      SSA’s project liaison to suspend                  Our Los Angeles Field
                      payment, calculate the overpay­                   Division investigated a
                      ment, and respond back to our                     man who regularly pro­
                      office with the results. Our special              vided translator services to
                      agents coordinated with the USAO        SSI applicants, and received fees for
                      on these cases; however, to date,       his services. He provided these ser­
                      prosecutions have been declined by      vices while he was also an SSI
                      the USAO since subjects remain out      recipient himself. The investigation
                      of country or due to lack of prosec­    revealed that he had unreported
                      utive merit. The absence of the sub­    income, resources, and work activ­
                      jects has also hindered CMP             ity. He even maintained a second
                      development.                            home for his girlfriend. When
                                                              investigators interviewed him, he
                                                              admitted that he had two SSNs and
                      Disability Fraud                        received cash “gifts” from SSI
                      A serious issue for our office is       applicants that were approved for
                      when individuals attempt to             benefits. He was incarcerated and
                      defraud Social Security programs        ordered to pay $68,933 restitution
                      by falsely claiming disabilities in     to SSA.
                      order to receive disability benefits.
                      In addition to the CDI team cases                Our New York Field Divi­
                      highlighted earlier in the Signifi­              sion investigated a woman
                      cant Activities section of this                  who repeatedly suffo­
                      report, our field divisions also reg­            cated her children and


Issue 5: Fraud Risk
SSA OFFICE OF THE INSPECTOR GENERAL                                                             31


claimed that they both suffered         deceased individuals undermine
from a breathing disorder. The          public trust and confidence in
“breathing disorder” formed the         SSA’s programs.
basis of successful SSI disability
applications for both children. This    OI aggressively pursues allegations
woman fraudulently received             related to the diversion of benefit
$40,333 in SSI benefits for both of     payments intended for SSA benefi­
her children. She was ultimately        ciaries. In addition, we have added
incarcerated for the second-degree      concerns about the diversion of
murder of her 2-year-old daughter       benefits after the death of the
and abuse of her older son.             intended benefit recipient.

          Based on a referral from      The following two cases provide a
          SSA’s McComb, Missis­         sense of the types of cases that OI
          sippi office, our Atlanta     regularly investigates.
          Field Division investigated
a man who concealed his work                     Our Los Angeles Field
activity and provided false state­               Division initiated an inves­
ments to SSA to continue receiving               tigation based on a referral
disability benefits. From 1994                   from SSA’s San Mateo,
through 1999, the man owned and         California office. SSA referred this
supervised the daily operations of a    case after making repeated
construction company. During this       attempts to contact two elderly
period, this construction company       beneficiaries both in person and by
earned approximately $615,000           mail. The investigation revealed
while the man received $65,891 in       that a woman had fraudulently
benefits to which he was not enti­      obtained disability benefit pay­
tled. He was incarcerated and           ments intended for her deceased
ordered to pay $65,891 restitution      parents. After admitting that her
to SSA.                                 parents died in 1986, the woman
                                        was incarcerated and was ordered
                                        to pay $119,352 in restitution to
Payments Made to                        SSA.
Deceased Individuals
Our office, in conjunction with SSA,             Our New York Field Divi­
has taken aggressive action to stop              sion investigated a woman
erroneous payments to deceased                   who continued to cash her
individuals. This includes front-                mother’s Social Security
end detection of these improper         benefit checks after her death in
payments, controls to prevent such      October 1977. She fraudulently
payments, and detailed investiga­       received $70,714 in benefits from
tions to locate wrongdoers when         November 1977 through August
the system breaks down. We              1995. The woman was incarcerated
believe that paying the right person    and ordered to pay $68,440 restitu­
the right amount of benefits is para-   tion to SSA.
mount. Payments made to


                                                                                Issue 5: Fraud Risk
32                                           SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                      OI also initiated a major national       FOs to verify the deaths, take
                      investigative project in this area as    administrative action, and open
                      described below.                         investigations, if appropriate. If the
                                                               beneficiary is alive, our investiga­
                      BIC “D” Project                          tors will notify the local SSA FO
                                                               that the Numident record is in
                      We initiated a new national opera­       error.
                      tion this year focusing on deceased
                      auxiliary Social Security beneficia­     As of September 30, 2001, OI
                      ries who are in current payment          opened 1,414 cases and identified
                      status, even though a date of death      $14.1 million in fraud loss, $7.6 mil-
                      is posted in SSA’s records. This         lion in scheduled/actual recover­
                      project is known as BIC “D,”signi­       ies, and $19.8 million in projected
                      fying Beneficiary Identification         savings.
                      Code “D” for widows and widow­
                      ers.                                     Our auditors also conducted the
                                                               following reviews in this area.
                      This project originated when one of
                      our investigators identified a possi­    OASDI Benefits Paid to
                      ble problem in SSA death records.        Deceased Auxiliary
                      Based on this information, our           Beneficiaries
                      investigators and auditors con­
                      ducted a pilot project during which               Our objective was to deter-
                      they identified all current BIC “D”               mine whether SSA had ade­
                      beneficiaries residing in the New                 quate procedures to ensure
                      England Region with a date of                     that OASDI benefits were
                      death posted to the Agency’s             terminated when an auxiliary bene­
                      Numident records. The Numident           ficiary died.
                      is a history file that contains infor­
                      mation on all valid SSN applica­         We found that SSA can improve its
                      tions since 1936. Deaths are             current death matching process to
                      typically noted on the Numident          ensure that OASDI benefits are ter­
                      file only. Overall, this pilot project   minated when death notices are
                      resulted in the identification of 29     received for auxiliary beneficiaries.
                      deceased individuals who were            We estimated that 881 deceased
                      overpaid more than $700,000.             auxiliary beneficiaries received $31
                                                               million in OASDI benefits after
                      Based on the success of the pilot        their dates of death. Additionally,
                      project, OI launched a national          we estimated that 4,152 auxiliary
                      operation. OI identified 2,934 sub­      beneficiaries receiving OASDI pay­
                      jects who were considered likely to      ments had a date of death recorded
                      be deceased and in current pay sta­      on SSA’s Numident file even
                      tus based on a records match of          though the beneficiaries were actu­
                      SSA’s payment records against its        ally alive.
                      Numident files. Currently, our
                      investigators are working with SSA


Issue 5: Fraud Risk
SSA OFFICE OF THE INSPECTOR GENERAL                                                             33


Although SSA’s current death           Additionally, SSA should refer any
matching process identifies and ter­   cases suspected to involve fraud to
minates OASDI payments to most         OI and remind staff to fully follow
deceased beneficiaries, improve­       SSA’s procedures when processing
ments can be made to further refine    death alerts to ensure all records
the process and ensure that SSA        requiring action are identified and
does not pay deceased beneficia­       corrected.
ries. If SSA does not take action,
additional beneficiaries may be        Unresolved Death Alerts Over
incorrectly paid after their deaths.   120 Days Old
Further, SSA’s death matching pro­
cess can be refined to ensure that              Our objective was to evalu­
living beneficiaries do not have a              ate the effectiveness of con­
date of death on their Numident                 trols and procedures for
record, so that living beneficiaries            resolving death alerts over
will not have their benefits termi­    120 days old and identifying pay­
nated prematurely.                     ments to deceased beneficiaries.
                                       We concluded that SSA’s controls
SSA plans to upgrade its Death         and procedures do not ensure that
Alert, Control, and Update System      the DACUS 120-day aged alert
(DACUS) system to resolve some of      report is reviewed and resolved in
the problems in the future, but the    a timely and consistent manner. We
Agency should take steps now to        further concluded that SSA needs
address the death information that     to implement systems modifica­
conflicts with current payments        tions to improve the processing and
being made.                            monitoring of death alerts and
                                       reduce the potential for erroneous
We recommended and SSA agreed          payments to deceased individuals.
to periodically (at least annually)
match its Death Master File (DMF)      We found that $782,099 of pay­
against its auxiliary payment          ments attributable to 206 deceased
records to identify records in which   individuals could have been
a date of death is posted on the       avoided had the death alerts been
DMF but for which payment              resolved within 30 days of their
records show current benefit pay­      appearance on the DACUS 120-day
ments. We recommended that SSA         aged alert report. When we
resolve the discrepancy between        matched BVS death records from
the dates of death on the Numident     the State of California for 1989
file and the current payment status    through 1998 and the DACUS 120-
on the Master Beneficiary Record       day aged alert report for March
for the records in our population      1999, we found 72 individuals who
that are not being reviewed by OI      were deceased but continued to
and were not included in our sam­      receive payments after their deaths
ple.                                   totaling $959,545. We also identi­
                                       fied 26 cases where individuals
                                       may have fraudulently negotiated


                                                                                Issue 5: Fraud Risk
34                                             SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                        $429,779 in Social Security benefits     However, SSA reported that it
                        after the death of a beneficiary. SSA    could not expedite the implementa­
                        subsequently terminated pay­             tion of DACUS Release 3 due to
                        ments to these individuals and we        limited resources. For the fourth
                        referred these cases to OI.              recommendation, SSA agreed that
                                                                 priority should be given to death
                        We recommended that SSA:                 alerts for individuals in current pay
                                                                 status based on reports of death
                        1.	 Develop specific procedures,         from State BVS records. Instead of
                            including timeframes, for            sorting the DACUS 120-day aged
                            regional offices (RO) to take cor­   alert report, SSA agreed to instruct
                            rective action on the DACUS          its FOs to give priority to these
                            120-day aged alert report.           alerts.
                        2.	 Monitor the DACUS 120-day
                            aged alert report on a nation-       SSA Employee Fraud
                            wide basis and follow-up with
                            ROs to ensure timely processing      Although the vast majority of SSA’s
                            of death alerts.                     over 60,000 employees are trust-
                                                                 worthy and dedicated civil ser­
                        3.	 Expedite implementation of           vants, we remain vigilant knowing
                            release 3 of DACUS to simplify       that a few corrupt employees can
                            the clearance of death alerts,       compromise the integrity of the
                            provide online management            Social Security system and under-
                            information, and reduce the          mine the public’s confidence in
                            number of erroneous alerts.          SSA’s programs. Due to the poten­
                        4.	 Sort the DACUS 120-day aged          tial for widespread abuse, the
                            alert report by payment status       detection of employee fraud is an
                            and source code to ensure that       investigative priority although it
                            priority is given to death alerts    comprises the fewest number of
OIG managers
collaborate on fraud-       for individuals in current pay       allegations and cases.
related projects.           status based on reports of death
                            from State BVS records.              During this reporting period, we
                                                                 opened 103 new employee investi­
                        In its response, SSA agreed with         gations, closed 116 employee inves­
                        our first two recommendations.           tigations, arrested 17 employees,
                        Accordingly, SSA agreed to               secured indictments of 15 employ­
                        develop procedures for processing        ees, and participated in 22 judicial
                        and monitoring death alerts over         actions that resulted in the convic­
                        120 days old. For the third recom­       tion of SSA employees.
                        mendation, SSA agreed that the
                        planned systems enhancements
                        included in DACUS Release 3
                        would improve its death reporting
                        system.




Issue 5: Fraud Risk
SSA OFFICE OF THE INSPECTOR GENERAL                                                             35


SSA Employee Fraud Case                 overpayments on closed records
                                        were identified and pursued for
An SSA employee fraud case is           collection from current benefit pay­
highlighted below.                      ments. We identified outstanding
                                        overpayments that were not trans­
          Based on a referral from      ferred to newly established Supple-
          SSA’s Downey, California      mental Security Records (SSR). As a
          office, our Los Angeles       result, SSA missed the opportunity
          Field Division investigated   to recover a substantial amount of
an SSA employee suspected of pro­       SSI overpayments by withholding
cessing a suspicious pattern of mul­    benefits when SSA resumed pay­
tiple SSN cards. This employee          ments to these recipients.
fraudulently processed 983 SSNs
between January 1998 through June       Based on the results of our statisti­
2000, in furtherance of multiple        cal sample, we estimated that, as of
fraud schemes with two co-conspir­      February 2000, $93.54 million in
ators. For sentencing purposes, the     overpayments should have been
judge determined that the conspir­      transferred to 35,138 recipients’
acy netted approximately $786,400       current records. Further, SSA could
in proceeds from the sale of the        have already recovered $42.87 mil-
fraudulent Social Security cards.       lion in overpayments from these
The employee and co-conspirators        recipients’ current benefit pay­
were incarcerated and fined             ments if the overpayments had
$10,000 each.                           been transferred to the newly estab­
                                        lished SSRs when their payments
                                        resumed.
Other Fraud Related
Efforts                                 We also estimated that SSA could
Our auditors have also conducted        recover $20.08 million in outstand­
several reviews in an effort to pro­    ing overpayments from recipients
tect SSA programs from fraud and        during the next 12 months.
abuse.
                                        Since at least 1990, SSA has known
Controls Over Recording SSI             that its internal controls could not
Overpayments                            ensure that SSI overpayments on
                                        closed records were identified and
         Our objective was to deter-    collected when SSA resumed bene­
         mine whether SSA’s inter­      fit payments to SSI recipients by
         nal controls are adequate to   establishing new SSRs. Since 1997,
         ensure that SSI overpay­       SSA has implemented improved
ments on closed records are identi­     controls in this area through the
fied so that they can be recovered      Modernized SSI Claims System
from current benefit payments.          (MSSICS) and the Terminated
                                        Record Balancing and Debt Trans­
We found that SSA’s internal con­       fer (TREBDET). However, these
trols did not ensure that all SSI       system improvements were pro-


                                                                                Issue 5: Fraud Risk
36                                            SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                      spective in nature and are not effec­   review SSA’s implementation of
                      tive under all circumstances. As a      GPRA. To help us meet the ambi­
                      result, SSA has to clean-up SSRs        tious workload in this important
                      created prior to TREBDET and peri­      area, every issue team in OA con-
                      odically review new SSRs created        ducts GPRA-related reviews.
                      outside MSSICS.
                                                              All of the teams focus on two issues
                      To address this weakness, SSA           that are critical to the success of
                      developed a Debt Recovery Pro-          SSA’s efforts to manage for results:
                      gram. Approximately 54 percent of       determining the reliability of SSA’s
                      the 38,194 cases we identified meet     performance data, and ensuring
                      SSA’s criteria for being moved to       that SSA’s implementation of
                      new records by the Debt Recovery        GPRA is in accordance with its
                      Program. If these individuals           requirements.
                      received benefit payments during
                      July or August 2000, when the Debt      The following summarizes our
                      Recovery Program was run, these         efforts in this area for this reporting
                      overpayments should have been           period.
                      moved to new records. While SSA’s
                      July/August 2000 run was success­
                      ful, approximately 46 percent of the
                                                              GPRA Reviews
                      overpayments we identified remain               In FY 2001, we released sev­
                      on prior SSRs and still need to be              eral GPRA related reports.
                      moved forward to new SSRs.                      These reports provided a
                                                                      broad analysis on SSA’s
                      We recommended that SSA con­            implementation of the law. Both
                      tinue to periodically run the Debt      Audit of SSA’s FY 1999 Annual Per­
                      Recovery Program, pursue collec­        formance Report and Audit of SSA’s
                      tion of the overpayments, review        FY 2000 Annual Performance Report,
                      the 20,519 overpayments we identi­      noted that SSA’s annual perfor­
                      fied, and ensure that these out-        mance reports demonstrated SSA’s
                      standing overpayments were              strong commitment to meeting the
                      transferred to new SSRs. SSA            objectives of GPRA.
                      agreed with our recommendations.
                                                              Recognizing the evolving imple­
                      Issue 6:                                mentation of GPRA, the reports
                                                              highlighted some opportunities for
                      Government                              SSA to provide an even more
                      Performance and                         meaningful assessment of its per­
                      Results Act                             formance in future years. These
                                                              opportunities included more com­
                      Recognizing the importance of the       prehensive and accurate reporting
                      Government Performance and Results      of overall performance, clearly dis­
                      Act (GPRA) and the results-ori­         cussing performance for each mea­
                      ented management it mandates, we        sure, and discussing the effect of
                      developed a 3-year work plan to


Issue 6: Government Performance and Results Act
SSA OFFICE OF THE INSPECTOR GENERAL                                                                 37


unmet measures upon strategic            �	   Reliability of the Data Used to
goals.                                        Measure Disability Determination
                                              Services Decisional Accuracy.
Review of SSA’s FY 2001 Annual Per­      �	   Reliability of the Data Used to
formance Plan highlighted some                Measure the Percentage of SSNs
additional steps that SSA could               Issued Accurately.
take to make future performance
plans more useful to decisionmak­        While we found the data to be reli­
ers. The plan would be more useful       able in these reports, we also found
if it contained goals for all of SSA’s   that SSA often lacked documenta­
management challenges, more out-         tion of the methods and data used
come-based and service-related           to measure its performance. In the
performance measures, and more           cases above, we were able to repro­
specific identification of the           duce or obtain enough of the
resources needed to accomplish           needed documentation to come to
planned performance.                     our conclusions. In a few cases, the
                                         lack of documentation was signifi­
SSA generally agreed with the rec­       cant and did not allow us to con­
ommendations that flowed from            clude on the quality of SSA’s
the findings from the three reports.     performance data.
SSA stated that it realized the desir­
ability of a strong link between         We could not conclude on the reli­
budget and planned performance.          ability of the data, due to a lack of
However, it believes that the intent     required documentation in the fol­
of GPRA is met through its budget        lowing performance measure
justifications and performance           reviews:
plans.
                                         �	   Management Advisory Report:
The other reports released assess             Performance Measure Survey of
the reliability of data used to mea­          the Percent of 800-Number Calls
sure specific performance indica­             Handled Accurately.
tors. In a majority of our reviews,      �	   Reliability of the Data Used to
we were able to conclude that the             Measure 800-Number Perfor­
data SSA used to report on the per­           mance.
formance of its programs was reli­
able.                                    Other reviews concluded that the
                                         data used to measure SSA’s perfor­
During this reporting period, we         mance did not provide a reliable
completed reviews that found             assessment of performance of the
SSA’s performance data reliable in       program being measured. The com­
the following performance measure        pleted reviews that found SSA’s
reviews:                                 performance data unreliable
                                         include the following performance
�	   Reliability of the Data Used to     measure reviews:
     Measure the Accuracy of Earnings
     Posted.


                                                        Issue 6: Government Performance and Results Act
38                                                SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                          �   Reliability of the Data Used to     for Federal, State and local govern­
                              Measure the Hearing Process.        ments, as well as the private sector.
                          �   Reliability of the Data Used to
                              Measure Field Office Access.        The expanded use of the SSN has
                                                                  given rise to individuals acquiring
                          SSA agreed with our recommenda­         and using fraudulent SSNs and
                          tion of reviewing the methods and       SSNs assigned by SSA to other
                          policies used in collecting perfor­     individuals for illegal purposes.
                          mance data on the hearings pro­         Individuals use stolen and fraudu­
                          cess. In relation to our review on      lent SSNs to obtain employment,
                          the data used to measure FO access,     establish credit, and defraud Fed­
                          SSA concurred with our reported         eral programs, including the Social
                          findings and agreed to immediately      Security and SSI programs.
                          address seven of the nine associ­
                          ated recommendations. SSA               Individuals also misuse SSNs to
                          believed existing procedures            conceal their true identity while
                          already addressed concerns              committing a variety of other
                          addressed by one of the outstand­       crimes. Often, these crimes affect
                          ing recommendations and for the         innocent victims and cause tremen­
                          other SSA wished to delay imple­        dous losses to these individuals, as
                          mentation until a new pilot data        well as to the Government and pri­
                          collection system is tested in          vate sector.
                          FY 2002.
                                                                  Recently, we witnessed how the
                          Issue 7: Identity                       SSN facilitated the terrorists’ ability
                                                                  to integrate themselves into our
                          Theft                                   society with relative anonymity.
                                                                  The ramifications of this type of
“We as a                  Identity theft is the deliberate use
                                                                  activity can be severe and far-
government                of another person’s name and other      reaching. Consequently, curbing
created the SSN,          identifying information to commit       SSN misuse remains a top OIG pri­
and we must               theft or fraud or to access confiden­
                                                                  ority.
ensure that               tial information about an individ­
proper controls           ual. This is a particularly troubling   The public expects the Government
are in place to           issue in that it can take years for a   to deter SSN misuse and provide
protect its               victim of identity theft to recover.    the necessary remedies for those
integrity.”                                                       that are victimized. The public’s
James G. Huse Jr.         Originally, the SSN’s sole purpose      growing concern is reflected in the
Inspector General         was to provide a method for SSA to      large number of allegations we
                          accurately record worker’s earn­        receive each year. In FY 2001, we
                          ings. Despite this narrowly drawn       processed over 115,101 allegations,
                          purpose, the SSN became used as a       almost 57 percent of which
                          personal identifier in numerous         involved the misuse of an SSN. We
                          record systems. The SSN is now the      anticipate that this number will
                          single most widely used identifier      continue to grow unless sufficient



Issue 7: Identity Theft
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   39


controls are established to mini­       Deterrence Act of 1998 (Public Law
mize the risk of abuse.                 105-318), we have taken a proactive
                                        approach in the investigation of
To this end, we continue to work to     these crimes, and AMD has played
identify potential solutions to help    a major role in this endeavor. Last
fight this growing problem. We rec­     year, we entered into a Memoran­
ommend the expansion of CMP             dum of Understanding with the
authorities to strengthen penalties     FTC’s Bureau of Consumer Protec­
for the improper sale or misuse of      tion to refer SSN misuse and iden­
SSNs. While taking action to con­       tity theft allegations received by
trol the use of the SSN is by no        AMD to the FTC Identity Theft
means an easy task, it becomes          Data Clearinghouse, a national
increasingly daunting with each         database of identity theft com­
passing day and each new use (or        plaints.
misuse) to which SSNs are sub­
jected.                                 Sharing these allegations will not
                                        only improve the FTC’s and our
Effective March 28, 2001, Public        ability to assist victims, it will also
Law 106-578, the Internet False Iden­   improve the law enforcement com­
tification Prevention Act of 2000       munity’s efforts in the detection of
(IFIPA) amended 18 U.S.C. 1028 to       individuals committing identity
strengthen Federal law regarding        theft crimes. While our primary
false identification documents by       mission is to protect the integrity of
addressing the increased usage of       SSA’s trust fund, we will also focus
the internet and computer technol­      our investigative efforts on iden­
ogy in the creation and prolifera­      tity theft cases that strengthen the
tion of false identification            fabric of homeland security.
documents.
                                        Faced with this daunting situation,
This legislation closes the loophole    we continuously seek innovative
in Federal law that allowed the pro­    ways to prevent SSN misuse and
duction and distribution of identifi­   seek to create collaborative partner-
cation documents as long as they        ships with other Federal, State, and
were marked with a disclaimer.          local entities. To maximize our
The new provision provides that         investigative resources, we are ded­
only those operating under the          icating agents to work in a task
authority of a governmental entity      force environment with other law
may issue a document typically          enforcement agencies to investigate
accepted for identification pur­        identity crimes. We are working
poses. The number of internet sites     closely with prosecutors on SSN
purporting to sell SSNs and SSN         misuse cases that when presented
cards dropped dramatically after        separately may not have been
IFIPA was enacted.                      accepted for prosecution.

Furthermore, since the passage of       The additional benefit of law
the Identity Theft and Assumption       enforcement agencies pooling their


                                                                                  Issue 7: Identity Theft
40                                              SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                          investigative resources has resulted             Responding to allegations
                          in our being able to investigate                 received by the SSA OIG
                          more program cases and SSN mis­                  Fraud Hotline, our Chi­
                          use cases.                                       cago Field Division deter-
                                                                  mined that a man was working
                          Identity Theft Case                     under his deceased brother’s name
                                                                  and SSN since August 1996, while
                          Highlights                              collecting Social Security disability
                                                                  benefits under his real name and
                          The following cases highlight both      SSN. He was incarcerated and
                          SSA program-related cases and           ordered to pay $33,384 restitution
                          other SSN misuse investigations.        to SSA.

                                   Our Chicago Field Divi­                 Our Los Angeles Field
                                   sion conducted a joint                  Division investigated a
                                   investigation with the U.S.             man who was a lawyer
                                   Postal Inspection Service,              and member of the Cali­
                          the Ohio State Highway Patrol, and      fornia State Bar, who received SSI
                          INS of a former University of           payments under his true name
                          Akron economics professor. The          since 1987 while also receiving SSI
                          investigation revealed that the man     payments under the name of a high
                          had stolen SSNs, several of which       school friend. Investigators found
                          belonged to students from a uni­        55 sets of identities in his posses­
                          versity with which he was previ­        sion, 10 of which were used to
                          ously associated. He used the SSNs      operate 34 fraudulent brokerage
                          to obtain credit cards using the vic­   accounts, containing more than
                          tims’ identities, and made over         $200,000. Combined losses suf­
                          $125,000 in fraudulent charges. The     fered by SSA, the San Diego Public
                          man was incarcerated and ordered        Housing Commission, and several
                          to pay $114,241 to several victims.     banking institutions exceeded
                                                                  $104,000. He was incarcerated and
                                    Based on a referral from      ordered to pay $74,711 restitution
                                    SSA’s San Pedro, Califor­     to SSA. He was also ordered to for­
                                    nia office, our Los Angeles   feit about $89,000 in other assets.
                                    Field Division investigated
                          a man who was a Social Security         We have also conducted the follow­
                          disability beneficiary. In October      ing audit in this area.
                          1993, the man applied for a job
                          using his wife’s SSN and concealed
                          his earnings from 1993 through
                          1999, while continuing to receive
                          benefits from SSA. He was ordered
                          to pay full restitution to SSA total­
                          ing $42,027.




Issue 7: Identity Theft
SSA OFFICE OF THE INSPECTOR GENERAL                                                                      41


Replacement SSN Cards:                   To reduce the opportunity for
Opportunities to Reduce the              fraud and misuse, we recom­
Risk of Improper Attainment              mended that SSA:
and Misuse
                                         1.	 Develop regulations and incor­
         Our objective was to assess         porate system controls to limit
         the potential for individuals       the number of replacement SSN
         to improperly obtain and            cards an individual can receive
         misuse replacement SSN              during a 12-month period and
cards.                                       over a lifetime, and implement a
                                             two-PIN (personal identifica­
In 1999, SSA processed over 16 mil-          tion number) process requiring
lion SSN card applications, 11 mil-          management personnel to
lion (almost 70 percent) of which            approve exceptions.
were requests for replacement SSN        2.	 Re-emphasize enumeration pol­
cards. From April 1999 through               icies and procedures.
March 2000, SSA issued 3 or more
replacement SSN cards to 35,326          3.	 Ensure that FOs have opera­
individuals and 6 or more replace­           tional black lights and INS doc­
ment SSN cards to 194 individuals.           ument guides.
We determined potential misuse by        4.	 Test FO employee compliance
examining irregularities such as             with procedures for issuing
number holders with an unlikely              replacement SSN cards when
number of replacement SSN cards              performing periodic enumera­
based on their age, and number               tion quality reviews, providing
holders whose earnings were pro­             training and/or supervision, as
portionally higher than would be             needed.
expected given their age, number
of employers, and type of employ­        To address recommendation 1, SSA
ment.                                    agreed it needs to look more care-       OIG has staff in over 70
                                         fully at the issuance of replacement     locations across the
In a review of 290 applications          cards to ensure it takes every           Nation.
(based on either in-person inter-        advantage of systematic controls,
views or mail receipts), we found        such as limits, that might allow SSA
that SSA issued 45 replacement           to more effectively identify risk fac­
SSN cards that should not have           tors and avoid the issuance of mul­
been issued based on the appli­          tiple replacement cards in
cant’s documentary evidence. FO          questionable situations. SSA also
personnel do not always comply           stated it is beginning further assess­
with enumeration policies and pro­       ment to determine the most effec­
cedures because of pressure to           tive systematic protocols to pursue.
serve applicants as quickly as pos­
sible.                                   SSA agreed with recommendation
                                         2 and stated that, by September 30,
                                         2001, the Office of Operations
                                         would issue a reminder to all FOs


                                                                                  Issue 7: Identity Theft
42                                          SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                       stressing the importance of follow­    Issue 8:
                       ing enumeration policies and pro­      Representative
                       cedures.
                                                              Payee
                       SSA stated that it believes current
                       procedures address recommenda­         Some individuals cannot manage
                                                              or direct the management of their
                       tion 3. Specifically, the Agency
                       stated that every FO has a copy of     finances because of their age, men­
                       the Administrative Confidential        tal or physical impairment. Con­
                                                              gress granted SSA the authority to
                       Memorandum, which is the INS’
                       guide for examining INS docu­          appoint representative payees to
                                                              receive and manage these benefi­
                       ments. SSA also stated that the
                                                              ciaries’ payments. A representative
                       regional integrity onsite security
                       review or FO self-review includes      payee may be an individual or an
                                                              organization. SSA selects represen­
                       actions to verify the FO’s black
                                                              tative payees for OASDI beneficia­
                       light is operational. Additionally,
                       SSA stated it is working with INS      ries or SSI recipients when
                       to provide SSA employees access to     representative payees would serve
                                                              the individual’s interests.
                       more INS automated records and to
                       implement an Enumeration at
                                                              Representative payees are responsi­
                       Entry initiative.
                                                              ble for using benefits in the individ­
                                                              ual’s best interests. Their duties
                       SSA believes it can address recom­
                                                              include:
                       mendation 4 through reminder
                       items and training. SSA stated that
                                                              �	   Using benefits to meet the indi­
                       the Office of Quality Assurance and
                                                                   vidual’s current and foreseeable
                       Performance Assessment (OQA)
                                                                   needs.
                       conducts an annual end-of-line
                                                              �	   Conserving and investing bene­
                       review of both original and replace­
                                                                   fits not needed to meet the indi­
                       ment cards issued to assess the
                                                                   vidual’s current needs.
                       accuracy of the process. Upon issu­
                                                              �	   Maintaining accounting records
                       ance of the next OQA report, the
                                                                   of how the benefits are received
                       Deputy Commissioner for Opera­
                                                                   and used.
                       tions will include a reminder for
                                                              �	   Reporting events to SSA that
                       the regional offices to have FOs
                                                                   may affect the individual’s enti­
                       conduct refresher training, as indi­
                                                                   tlement or benefit payment
                       cated by OQA’s findings, and to
                                                                   amount.
                       remind staff that they need to com­
                                                              �	   Reporting any changes in cir­
                       ply with all procedures for issuing
                                                                   cumstances that would affect
                       replacement SSN cards.
                                                                   their performance as a represen­
                                                                   tative payee.
                                                              �	   Providing SSA an annual
                                                                   accounting or Representative
                                                                   Payee Report of how benefits
                                                                   were spent and invested.



Issue 8: Representative Payee
SSA OFFICE OF THE INSPECTOR GENERAL                                                                  43


Our auditors conducted the follow­      �	   Financial-Related Audit of Hale
ing reviews in this area.                    Barnard Services - A Fee-for-Ser­
                                             vice Representative Payee for SSA
Financial-Related Audits of             �	   Financial-Related Audit of an Indi­
Representative Payees                        vidual Representative Payee for
                                             SSA
         Since 1996, our audits have    �	   Financial-Related Audit of an
         identified weaknesses in            Organizational Representative
         SSA’s monitoring of and             Payee for SSA
         accounting for representa­     �	   Financial-Related Audit of the Bal­
tive payees, and our investigative           timore City Department of Social
work provides examples of repre­             Services - An Organizational Rep­
sentative payees who have commit­            resentative Payee for SSA
ted misuse. Additionally, in recent     �	   Financial-Related Audit of Out-
hearings, Congress has expressed             reach, Inc. - A Fee-for-Service Rep­
concern as to the lack of account-           resentative Payee for SSA
ability and oversight of SSA’s rep­
resentative payees.                     We determined that four of the five
                                        representative payees generally
For these reasons, we performed         had effective safeguards over the
five financial-related audits of rep­   receipt and disbursement of bene­
resentative payees. The audits were     fits and ensured that they were
of three types of representative        used and accounted for in accor­
payees:                                 dance with SSA’s policies and pro­
                                        cedures. However, one
�   Fee-for-service organizational      representative payee did not have
    payees                              effective safeguards over benefits,
�   Non fee-for-service organiza­       did not properly account for them,
    tional payees                       and did not notify SSA of events
�   Individual payees serving more      that affected benefit eligibility.
    than 50 individuals
                                        Specifically we found:
The objectives of these audits were
to determine whether representa­        1.	 All 5 representative payees
tive payees:                                failed to monitor and report
                                            changes that affected benefit eli­
1.	 Had effective safeguards over           gibility which resulted in an
    the receipt and disbursement of         estimated $885,720 in benefit
    Social Security benefit.                overpayments for 275 beneficia­
                                            ries between September 1999
2.	 Ensure Social Security benefits
                                            and August 2000.
    are used and accounted for in
    accordance with SSA policies        2.	 Two representative payees
    and procedures.                         improperly handled the benefi­
                                            ciary’s conserved funds. Con-
The five representative payees
                                            served funds were held in a
audit reports were:
                                            non-interest bearing account or


                                                                           Issue 8: Representative Payee
44                                             SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                            were not returned to SSA when             uals earn interest on their con-
                            the representative payee was no           served funds.
                            longer serving as the represen­      �	   Return conserved funds to SSA
                            tative payee.                             or the new representative payee
                       3.	 Two representative payees                  for individuals no longer in its
                           improperly charged fees of                 care and to establish controls to
                                                                      determine when individuals no
                           $874.
                                                                      longer in its care have con-
                       4.	 One representative payee had               served funds and ensure these
                           notable accounting systems                 funds are returned in a timely
                           internal control weaknesses.               manner.

                       In addition, for four of the repre­
                       sentative payees, SSA incorrectly         Representative Payee
                       recorded in its Representative            Fraud Case Highlights
                       Payee System (RPS) the number of
                                                                 The following cases highlight our
                       beneficiaries in the representative
                                                                 activity in this area.
                       payee’s care and/or had listed the
                       representative payee multiple
                                                                           Based on a referral from
                       times in RPS.
                                                                           SSA’s MEDMATCH
                                                                           project, our Los Angeles
                       The following summarizes the rec­
                                                                           Field Division investigated
                       ommendations we reported to the
                                                                 a representative payee who failed
                       appropriate SSA Regional Commis­
                                                                 to report the death of the benefi­
                       sioners. We recommended that SSA
                                                                 ciary to SSA. The true beneficiary
                       require the representative payees
                                                                 died on March 22, 1989, and the
                       to:
                                                                 representative payee continued to
                                                                 cash and use the Widow’s and SSI
                       �	   Implement internal accounting
                                                                 benefits for her own use until the
                            controls to ensure that all bene­
                                                                 benefits were terminated in Decem­
                            fit receipts and disbursements
                                                                 ber of 1999. The representative
                            are accurately recorded.
                                                                 payee was incarcerated and
                       �	   Implement controls to monitor
                                                                 ordered to pay $82,878 restitution
                            and report to SSA events that
                                                                 to SSA.
                            would affect benefit eligibility
                            or amount. Also, SSA should
                                                                          Our Denver Field Divi­
                            ensure representative payees
                                                                          sion investigated a partic­
                            take corrective action to repay
                                                                          ularly gruesome case
                            all overpayments we identified
                                                                          where a U.S. Marine Corps
                            during our audit period.
                                                                 Staff Sergeant staged his own death
                       �	   Survey banks to re-assess the
                                                                 in February 1994 to avoid being
                            feasibility of placing benefi­
                                                                 prosecuted for child molestation by
                            ciary conserved funds into an
                                                                 the military. His wife, mother, and
                            interest bearing account and to
                                                                 two brothers helped plan a murder,
                            take action to ensure all individ­
                                                                 stage a funeral, and subsequently
                                                                 applied for various benefits includ-


Issue 8: Representative Payee
SSA OFFICE OF THE INSPECTOR GENERAL                                                                  45


ing life insurance, veterans, and        ity. In March 1993, he was dis­
Social Security Survivors benefits.      charged into his daughter’s care
His staged death was discovered          and custody.
when he was arrested by local
police for molesting his daughters.      Our investigation determined that
He later committed suicide while         in April 1993, the man disappeared
imprisoned.                              while taking a walk between rela­
                                         tives’ homes. The local sheriff’s
His wife, who served as representa­      office conducted a search, but never
tive payee for their daughters, was      located the man. His daughter
ordered to pay $72,525 restitution       failed to inform SSA of her father’s
to SSA for benefits obtained fraud­      disappearance and continued to
ulently. She was also ordered to         negotiate his Social Security bene­
pay $29,349 to the Department of         fit checks. She was ordered to pay
Veterans Affairs. The man’s broth­       $41,882 restitution to SSA.
ers were incarcerated and, along
with their mother, were ordered to       Issue 9: Service to
pay $201,568 restitution to the life
insurance companies that they
                                         the Public
defrauded.
                                         SSA is faced with increased work-
                                         loads brought about by an aging
         Based on a referral from
                                         Baby-Boom generation, a projected
         SSA’s Casa Grande, Ari­
                                         retirement wave of over half of its
         zona office, our Los Ange­
                                         workforce, and technological
         les Field Division
                                         advances that affect both American
conducted an investigation that
                                         citizens’ expectations and SSA’s
revealed that a representative
                                         ability to meet them.
payee used her stepson’s Social
Security benefits for her own per­
                                         In response, SSA developed a Ser­
sonal use. In June 1994, the stepson
                                         vice Vision, formerly known as the
was removed from her custody and
                                         2010 Vision, that outlines a 10-year
eventually became a ward of the
                                         strategy to help meet future service
State of Arizona. In October 1997,
                                         delivery challenges. Specific princi­
the stepson advised SSA that he
                                         ples and enablers underpin the Ser­
had not resided with the represen­
                                         vice Vision’s plans for enhanced
tative payee since June 1994. She
                                         service delivery. Examples of these
was incarcerated and ordered to
                                         include giving individuals
pay $20,214 restitution to SSA.
                                         expanded options for service in
                                         terms of time, place, mode of
         Based on a referral from
         SSA’s Jackson, Alabama          access, and language. However, to
                                         deliver on the Service Vision’s
         office, our Atlanta Field
                                         planned actions, employees will
         Division investigated a
woman who was a representative           need to be provided the latest tech­
                                         nological enhancements for fully
payee for her father while he was
                                         electronic, paperless work process-
an inpatient at a mental health facil­


                                                                          Issue 9: Service to the Public
46                                              SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                         ing, access to electronic records,       those with disability or SSI claims,
                         and operational flexibility.             may encounter problems. As work-
                                                                  loads increase, the dimensions of
                         The Service Vision also highlights       SSA’s problems can be expected to
                         the need to forge and maintain both      grow if left unattended and the
                         internal and external alliances; to      public may be faced with crowded
                         be an employer of choice; and to         reception areas, long wait times,
                         emphasize leadership that is proac­      inadequate telephone service, and
                         tive, entrepreneurial, and cus­          reduced quality of work.
                         tomer-centered.
                                                                  To meet future service demands,
                         While these are laudable goals, SSA      SSA will need to maintain existing
                         should place equal emphasis on           service levels, while exploring new
                         effective and appropriate steward-       and innovative ways to address
                         ship. We strongly believe that SSA       service delivery problems. To
                         must realign more resources to           accomplish this, SSA must recruit
                         stewardship in light of all the man­     and retain a cadre of highly skilled
                         agement challenges and the               employees. However, even at cur-
                         demands on SSA’s limited                 rent staffing levels, SSA often finds
                         resources and staff. While service is    it difficult to maintain an accept-
                         of critical importance, it should not    able level of service, especially in its
                         be pursued at the expense of sound       most complicated workloads. To
                         stewardship.                             make matters worse, SSA is facing
                                                                  an unusual wave of management
                         SSA recognizes there are a number        and staff retirements. Over 37 per-
                         of significant service delivery prob­    cent of SSA’s employees are
                         lems that need attention. One is the     expected to retire in the next 5
                         complexity of the programs SSA           years with over 80 percent of SSA’s
                         administers. Another is the steady       upper-level managers eligible to
                         reduction in staffing since 1982,        retire by 2010.
                         resulting in an aging and work-
                         laden workforce. SSA’s workloads         Additionally, the Agency may find
Human capital            will continue to increase as baby        it difficult to replace employee
shortages and            boomers reach retirement age, chal­      losses as the Nation’s labor force of
increasing               lenging SSA to find ways to keep         people between the ages of 25 and
workloads will           pace.                                    44 is expected to shrink. If pre­
stress SSA’s                                                      dicted shortages in human capital
ability to               The Social Security Advisory Board       are realized, SSA may not be able to
provide quality          previously reported that the result      strengthen and revitalize future
service.                 of the above workload pressures on       employee ranks as its workloads
                         SSA staff will continue to be            continue to grow in volume and
                         uneven service. Persons filing for       complexity.
                         retirement or survivors benefits
                         will likely be satisfied with the ser­   Increased workloads coupled with
                         vice provided. However, individu­        human capital shortages will stress
                         als with complicated cases, such as      SSA’s ability to provide quality ser-


Issue 9: Service to the Public
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   47


vice to the public. Given these fac­    We estimated that $5 million in SSI
tors, human capital management          overpayments exist for 9,240 SSI
will also need to be an integral part   recipients who had applied for ben­
of SSA’s strategic plan, and opera­     efits during the period July 1997
tional efforts must be implemented      through June 1998 and whose SSI
to make SSA’s 2010 vision a reality.    record showed a deemor income
                                        alert on December 18, 1998. The
Given the enormous size of SSA’s        overpayments resulted from
programs, the billions of dollars at    unstated and/or understated
stake, and the millions of citizens     deemable income from spouse to
who rely on SSA, program manag­         spouse and parent to child when
ers must ensure that pursuing           applicants first started receiving
quick service is not at the expense     benefits. Our estimate of overpay­
of accuracy. The service challenge      ments is based on a sample of 100
is to recognize that, while SSA’s       records randomly selected from a
service efforts are among the best in   population of 9,240 records. We
the world, the enormous pressure        projected an estimated 3,169 recipi­
of speed versus accuracy increas­       ents (34 percent) in this population
ingly threatens SSA’s resource lev­     had overpayments.
els and poses a threat to the trust
the public has in our ability to “pay   We also evaluated SSA’s policy on
the right amount, to the right per-     the deeming of parental income for
son, at the right time.”                low-birth-weight infants. We found
                                        that SSA correctly applies the pol-
To address the issues surrounding       icy, but believes changes are
service delivery, our auditors          needed to consider the income of
issued the following reports this       high-income parents in determin­
period.                                 ing eligibility as soon as an infant is
                                        released to the parents’ care. Cur-
Deeming of Income to Establish          rent policy provides a 2-month
Initial Eligibility for SSI             transition period before the par­
Recipients                              ent’s income is considered.

         Our objective was to evalu­    We recommended that SSA:
         ate the adequacy of the
         Agency’s process for           1.	 Revise the SSI application to
         detecting deemable income          specifically mention the penal-
of spouses and parents when estab­          ties for false or misleading state­
lishing initial eligibility for SSI         ments that can be applied as a
recipients. The process of deeming          result of the Foster Care Indepen­
income involves determining if              dence Act of 1999 (Public Law
another person’s income would be            106-169).
available for meeting the SSI recipi­   2.	 Require certain deemors with
ent’s food, clothing, and shelter           significant fluctuations in
needs.                                      monthly income to submit earn­
                                            ings documentation monthly


                                                                           Issue 9: Service to the Public
48                                              SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                             for 6 months after the applicant     As a result of a significant gap in
                             begins receiving benefits.           documentation, we could not
                                                                  assess the reliability of the data SSA
                         3.	 Modify system’s software to
                                                                  used to measure the accuracy of the
                             interface on-line with the OCSE
                                                                  Agency’s 800-number. We found
                             database.
                                                                  that SSA personnel that monitored
                         4.	 Revise procedures for deeming        sampled calls did not document
                             of income to low-birth-weight        caller questions and/or requests or
                             infants, so that a parent’s          SSA employees’ responses. We also
                             income is considered for eligi­      found that the FY 1999 800-number
                             bility testing and payment com­      service accuracy rate does not
                             putation starting in the month       properly reflect the measure’s defi­
                             the child is released to the par­    nition. SSA included payment-
                             ent’s household.                     related calls in the service accuracy
                                                                  rate computation, although, the
                         In response to our draft report, SSA     definition states service accuracy is
                         provided rationale for disagreeing       a measure of the accuracy of
                         with all except the third recommen­      responses to non-payment ques­
                         dation. As a result, we revised the      tions.
                         second and fourth recommenda­
                         tions, reducing the burden of earn­      We recommended that SSA:
                         ings verification to just certain
                         applicants and providing for the         1.	 Revise procedures to require
                         deeming of parent’s income to low-           maintaining detailed support of
                         birth-weight infants in eligibility          all 800-number calls monitored
                         and payment computations in the              to ensure compliance with
                         month of hospital release.                   GPRA and Office of Manage­
                                                                      ment and Budget (OMB) stan­
                         Management Advisory Report -                 dards.
                         Performance Measure Survey of
                                                                  2.	 Revise the 800-number service
                         the Percent of 800-Number Calls
                         Handled Accurately                           accuracy rate computation or
                                                                      definition to ensure the
                                                                      reported results correspond to
                                 Our objective was to assess
                                                                      the definition and the reported
                                 the reliability of the perfor­
                                 mance data used to mea­              payment accuracy rate.
                                 sure the percent of 800-
                                                                  In its response, SSA disagreed with
                         number calls handled accurately in
                                                                  the first recommendation but sug­
                         FY 1999. Achieving accuracy rates
                                                                  gested that in the future we co­
                         of 90 percent for service calls and 95
                                                                  monitor 800-number calls with SSA
                         percent for payment calls were two
                                                                  staff when it assesses the reliability
                         of the performance goals SSA
                                                                  of the data used to compute this
                         developed to meet the require­
                                                                  performance measure. Regarding
                         ments of GPRA.
                                                                  the second recommendation, SSA
                                                                  agreed to revise the definition of
                                                                  the measure in future reports.


Issue 9: Service to the Public
SSA OFFICE OF THE INSPECTOR GENERAL                                                                         49



Issue 10: Systems                        accurate and complete. In accor­
Security and                             dance with section 316 of the Per­
                                         sonal Responsibility and Work
Controls                                 Opportunity Reconciliation Act of
(Program and                             1996 (Public Law 104-193), the
Administrative                           Department of Health and Human
Applications)                            Services’ OCSE developed a data-
                                         base, known as the National Direc­
The importance of computer sys­          tory of New Hires (NDNH), to aid
tem security increases as opportu­       in enforcing child support orders.
nities for users to disrupt critical     This Act, as well as the Privacy Act,
systems, modify key processes, and       also provides for the disclosure of
read or copy sensitive data              the information in the NDNH data-
increases. Strong systems security       base to SSA for its use in prevent­
and controls are needed to prevent       ing and reducing payment errors.
                                                                                        Computer
access to confidential information                                                      Specialists provide
and critical systems and the fraud­      We found two vulnerabilities with              critical support to all
ulent use of SSA data.                   SSA’s OCSE permission module,                  of OIG’s offices
                                                                                        across the Nation.
                                         which was developed to ensure
After auditing SSA’s FY 2000             that SSA staff could only access
Financial Statements, a public           records with an SSI business rela­
accounting firm noted that SSA           tionship. Contrary to access specifi­
needs to further strengthen controls     cations, our tests showed that
to protect its information. SSA has      authorized FO personnel could
made notable progress in address­        gain query access for individuals
ing the information protection           who were not receiving SSI bene­
issues raised in prior years. Despite    fits, but who were receiving bene­
these accomplishments, SSA’s sys­        fits from SSA under a separate
tems environment remains threat­         entitlement program. SSA cor­
ened by security and integrity           rected this issue as soon as we
exposures impacting key elements         brought it to their attention.
of its distributed systems and net-
works.                                   We also found that persons could
                                         gain query access for individuals
Our auditors also conducted the          who were representative payees for
following review involving SSA’s         SSI recipients, but who did not
systems controls and processes.          receive SSI benefits themselves.
                                         When we brought this to their
Review of SSA’s OCSE Pilot               attention, SSA staff reported that
Evaluation                               they would take corrective action to
                                         implement a system modification
        Our objective was to deter-      prior to the national rollout of the
        mine whether SSA’s assess­       online query.
        ment of the benefits and
        risks of using online, read-     Our review did not identify any
only access to the OCSE data was         issues that would cause us to rec-


                          Issue 10: Systems Security and Controls (Program and Administrative Applications)
50                                              SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                         ommend against SSA’s implemen­              duplicate reported savings from
                         tation of the on-line query in all its      SASRO.
                         FOs. However, during our limited
                         testing of SSA’s system security, we        Employee Access to the
                         identified security weaknesses,             Earnings Record Maintenance
                         which indicated that SSA had not            System (Limited Distribution
                         conducted sufficient testing prior to       Report)
                         implementing the pilot. Also, we
                         had some general concerns regard­                   Our objective was to deter-
                         ing SSA’s return on investment                      mine whether employee
                         (ROI) calculation.                                  access to the Earnings
                                                                             Record Maintenance sys­
                         In response to our findings, SSA            tem (ERMS) is appropriately
                         initiated prompt corrective actions         assigned to restrict unnecessary
                         to address the security weaknesses          access to earnings records. ERMS is
                         we identified. Also, SSA had                comprised of several subsystems
                         planned to perform an additional            that edit, balance, validate, and
                         study in 2001 to assess the costs           post employee wages, self-employ­
                         and benefits of nationwide access           ment earnings, and earnings
                         to the online OCSE query.                   adjustments to the Master Earnings
                                                                     File. SSA uses commercial access
                         We recommended that SSA con­                control software to control access to
                         tinue to monitor and test the secu­         ERMS. We sought to determine
                         rity of the OCSE query during the           whether personnel are prohibited
                         national rollout to ensure access           from accessing unneeded screens
                         weaknesses do not exist. We also            and edit functions by proper
                         recommended that SSA ensure the             assignment of access control pro-
                         savings reported for SSA’s initia­          files.
                         tives for online access under SSA’s
OIG staff continuously
seek more innovative
                         Access to State Records Online              We believe that by implementing
ways to accomplish our   (SASRO) are factored into its               the following recommendation,
mission.                 planned ROI analysis of nation-             SSA can help prevent unauthorized
                         wide access to OCSE databases.              access, modification, or disclosure
                                                                     of its sensitive information. We rec­
                         In response to our draft report, SSA        ommended that SSA improve the
                         agreed with our first recommenda­           procedures for maintaining and
                         tion. With regard to our second rec­        updating the access control system.
                         ommendation, SSA no longer plans
                         to conduct a study to assess the cost       Due to the sensitive nature of this
                         and benefits of nationwide online           audit, we cannot describe in detail
                         OCSE access. Since SSA no longer            the findings of this report, and it is
                         plans to conduct a nationwide ROI           not available for distribution.
                         study, when disclosing the results
                         of the ROI based on the pilot, SSA
                         should note that the ROI is not a
                         statistical projection and may


Issue 10: Systems Security and Controls (Program and Administrative Applications)
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   51



Financial Audits

The Chief Financial Officers Act of     Management Letter, Parts 1 and 2
1990 (Public Law 101-576), as           and made numerous recommenda­
amended, requires the IG or an          tions to SSA to improve its systems,
independent external auditor, as        operations, and processes.
determined by the IG, to audit
SSA’s financial statements in accor­    Management Letter Part 1 is for
dance with GAO’s Government             limited distribution and pertains to
Auditing Standards. In addition to      sensitive information related to
                                                                                 Each year our auditors
this requirement, we also conduct       findings in the systems area and         oversee the conduct of
other financial-related audits of       how SSA can resolve the previously       SSA’s Financial
SSA’s operations and review the         mentioned reportable condition           Statement Audit.

quality of single audits conducted      involving the protection of its infor­
by State auditors and public            mation. Management Letter Part 2
accounting firms. The following         provides information on other
summarizes our audit work for this      internal control issues that do not
reporting period.                       rise to the level of a reportable con­
                                        dition. Overall, SSA agreed with
Audit of the FY 2000 Financial          the recommendations and is taking
Statements of SSA                       corrective action.

         PricewaterhouseCoopers
         LLP (PwC) performed
                                        Single Audits
         SSA’s FY 2000 financial        On July 5, 1996, the President
         statement audit. On            signed the Single Audit Act Amend­
December 1, 2000, PwC issued an         ments of 1996, which extended the
unqualified opinion on SSA’s FY         statutory audit requirement to non-
2000 financial statements. In PwC’s     profit organizations and revised
opinion, “...the consolidated finan­    various provisions of the 1984 Sin­
cial statements audited ... presented   gle Audit Act including raising the
fairly, in all material respects, the   dollar threshold for requiring a sin­
financial position of SSA at Septem­    gle audit to $300,000 in Federal
ber 30, 2000 and 1999.                  awards expended.

PwC’s audit report identified one       As a result, OMB rescinded Circu­
reportable condition in SSA’s inter­    lar A-128 and issued revised Circu­
nal control. PwC identified a con­      lar A-133, Audits of States, Local
trol weakness and reported that         Governments and Non-Profit Orga­
SSA needs to further strengthen         nizations, to implement the amend­
controls to protect its information.    ments. We review the quality of
SSA generally agreed with this          these audits, assess the adequacy of
finding and PwC’s recommenda­           the entity’s management of Federal
tion. Subsequent to the financial       funds, and report single audit find­
statement audit, PwC issued its         ings to SSA for audit resolution.


                                                                                        Financial Audits
52                                       SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


                   Summary of FY 2000 Single               We recommended and SSA agreed
                   Audit Oversight Activities              to provide the following instruc­
                                                           tions to each DDS:
                           SSA is responsible for the
                           policies to develop disabil­    �	   Adhere to the terms of the Cash
                           ity claims under the DI and          Management Improvement Act
                           SSI programs. According to           agreement.
                   Federal regulations, disability         �	   Implement procurement proce­
                   determinations under the DI and              dures to prevent the awarding
                   SSI programs are performed by                of contracts and subawards to
                   DDSs in each State. The DDS deter-           debarred or suspended parties.
                   mines the claimants’ disabilities       �	   Follow established procurement
                   and ensures adequate evidence                instructions.
                   supports its determinations. SSA        �	   Implement controls to prevent
                   reimburses the DDS for 100 percent           unauthorized computer access.
                   of allowable expenditures.              �	   Develop a formal contingency
                                                                plan to prevent disruption of
                   There are 54 DDSs located in the 50          services in the event of a disas­
                   States, the District of Columbia,            ter.
                   Puerto Rico, Guam, and the Virgin       �	   Maintain complete and accurate
                   Islands. The DDSs are subject to             equipment inventory records
                   Single Audit except the federally            and perform periodic physical
                   administered Virgin Islands DDS.             inventories.
                                                           �	   Implement effective procedures
                   The objective of our review was to           for preparing, reviewing,
                   summarize areas of internal control          approving and timely reporting
                   weaknesses at State DDSs reported            of information on the Report of
                   in State single audits and identified        Obligations and the Time
                   during FY 2000 single audit over-            Report of Personal Services.
                   sight activities.                       �	   Ensure that costs charged to
                                                                SSA benefit its programs and
                   Our findings are based on 53 single          are properly authorized and
                   audits in the following categories:          documented.
                   cash management, procurement,
                   computer equipment and real
                   property management, reporting,
                   and allowable costs. Of the 53
                   audits, 13 audits reported direct
                   findings (specific to the DDS) and
                   43 audits reported crosscutting
                   findings (not specific to the DDS,
                   but which, could have an impact on
                   the DDS.)




Financial Audits
SSA OFFICE OF THE INSPECTOR GENERAL   53




                   Appendices

54   FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                                                 55



Appendix A: Resolving Audit
Recommendations
Reports with Questioned Costs for the Reporting Period
April 1, 2001 through September 30, 2001
The following chart summarizes SSA’s responses to OIG’s recommendations for the recovery or
redirection of questioned and unsupported costs. This information is provided in accordance with the
Supplemental Appropriations and Recission Act of 1980 (Public Law 96-304) and the Inspector General Act of
1978, as amended.

                                                                              Number           Value Questioned             Value Unsupported

 A. For which no management decision had been made by                          9a                    $4,779,451                              $0
 the commencement of the reporting period

 B. Which were issued during the reporting period                             14 b                $130,318,529                     $1,692,988

                           Subtotal (A+B)                                      23               $135,097,980                     $1,692,988

 Less:

 C. For which a management decision was made during                            20c                $133,278,121                               $0
 the reporting period

            i. Dollar value of disallowed costs                               13d                 $132,766,019                               $0

            ii. Dollar value of costs not disallowed                            7                      $512,102                              $0

 D. For which no management decision had been made by                          5e                    $1,819,859                    $1,692,988
 the end of the reporting period

  a.Audit of Administrative Costs Claimed for Fiscal Year (FY) 1994 by the New Jersey Department of Labor, for its Division of Disability Determinations
(DDD) (A-02-95-00002, 6/20/97); Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Costs Claimed by American
Institutes for Research on the Social Security Administration’s (SSA) Contract Number 600-97-32018 (A-15-00-20034, 8/14/00); Single Audit of the
State of Mississippi for the FY Ended June 30, 1998 (A-77-00-00006, 8/31/00); Single Audit of the District of Columbia’s Department of Human Services
(DHS) for the FY Ended September 30, 1997 (A-77-01-00002, 2/5/01); Single Audit of the District of Columbia’s DHS for the FY Ended September 30,
1998 (A-77-01-00003, 2/5/01); Audit of the Administrative Costs Claimed by the District of Columbia DDD (A-13-98-91003, 2/8/01); Single Audit of
the State of Mississippi for the FY Ended June 30, 1999 (A-77-01-00004, 3/29/01); Single Audit of the State of Alabama for the FY Ended September 30,
1999 (A-77-01-00006, 3/29/01).
 b.See “Reports with Questioned Costs” on page 60 of this report.
 c.A management decision was made for only a portion of the questioned costs contained in the reports, Single Audit of the State of Florida for the FY
Ended June 30, 2000 (A-77-01-00012, 8/24/01); and Financial-Related Audit of Outreach, Inc.- A Fee-for-Service Representative Payee for SSA (A-09-
00-10068, 9/18/01).
  d.Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Audit of the Administrative Costs Claimed by the District of
Columbia DDD (A-13-98-91003, 2/8/01); Controls Over Recording Supplemental Security Income (SSI) Overpayments (A-01-00-10005, 5/7/01); Fi­
nancial-Related Audit of Hale Barnard Services - A Fee-for-Service Representative Payee for SSA (A-01-00-10060, 5/7/01); Old-Age, Survivors and Dis­
ability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043, 6/19/01); Single Audit of the Illinois DHS for the 2-Year Period
Ended June 30, 1999 (A-77-01-00009, 7/17/01); Financial-Related Audit of an Individual Representative Payee for SSA (A-03-00-10064, 7/27/01); Un­
resolved Death Alerts Over 120 Days Old (A-09-00-10001, 8/2/01); Approval of Claimant Representatives and Fees Paid to Attorneys (A-12-00-10027,
8/21/01); Single Audit of the State of Florida for the FY Ended June 30, 2000 (A-77-01-00012, 8/24/01); Financial-Related Audit of Outreach, Inc.- A
Fee-for-Service Representative Payee for SSA (A-09-00-10068, 9/18/01); Payments Made to Selected Representative Payees after the Deaths of Social Se­
curity Beneficiaries (A-13-01-21028, 9/18/01); Financial-Related Audit of the Baltimore City Department of Social Services - An Organizational Repre­
sentative Payee for the SSA (A-13-00-10066, 9/25/01).
  e.Costs Claimed by American Institutes for Research on SSA’s Contract Number 600-97-32018 (A-15-00-20034, 8/14/00); Single Audit of the State
of Florida for the FY Ended June 30, 2000 (A-77-01-00012, 8/24/01); Single Audit of the State of West Virginia for the FY Ended June 30, 2000 (A-77-
01-00013, 8/29/01); Single Audit of the Commonwealth of Puerto Rico, Department of the Family for the FY Ended June 30, 1997 (A-77-01-00014, 8/
30/01); and Financial-Related Audit of Outreach, Inc.- A Fee-for-Service Representative Payee for SSA (A-09-00-10068, 9/18/01).



                                                                                                                                        Appendix A
56                                                    FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


Reports with Recommendations that Funds be Put to Better Use
for the Reporting Period April 1, 2001 through September 30, 2001

The following chart summarizes SSA’s responses to our recommendations that funds be put to
better use through cost avoidances, budget savings, etc.

                                                                                                   Number                 Dollar Value
 A. For which no management decision had been made by the                                               2a                        $37,417,726
 commencement of the reporting period

 B. Which were issued during the reporting period                                                      1 1b                    $151,229,594c

                                      Subtotal (A+B)                                                    13                     $188,647,320

 C. For which a management decision was made during the reporting
 period
            i. Dollar value of recommendations that were agreed to by
            management

                       (a) Based on proposed management action                                          4d                        $38,843,811

                       (b) Based on proposed legislative action                                         1e                      $125,000,000

                                      Subtotal (a+b)                                                     5                     $163,843,811

            ii. Dollar value of costs that were not agreed to by management                             4f                         $6,655,589

                                       Subtotal (i+ii)                                                  9g                     $170,499,400

 D. For which no management decision had been made by the end of the                                    7h                        $18,147,920
 reporting period

  a.Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Single Audit of the State of Alabama for the FY Ended
September 30, 1999 (A-77-01-00006, 3/29/01).
 b.See “Reports with Funds Put to Better Use” on page 62 of this report.
  c.This amount has been modified because of developments that occurred after the issuance of our reports entitled, Effectiveness of Obtaining Records to
Identify Prisoners (A-01-94-02004, 5/10/96) and Effectiveness of SSA’s Procedures to Process Prisoner Information, Suspend Payments and Collect Over-
payments (A-01-96-61083, 6/24/97). SSA’s Chief Actuary estimated a cost avoidance of $125 million to be realized semiannually from 1995 to 2001.
  d.Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005, 9/27/99); Internal Controls Over the Office of Hearings and Appeals
Interpreter Services (A-12-00-10023, 8/8/01); Vocational Expert and Medical Expert Fees for Services (A-06-99-51005, 8/21/01); Audit of the Adminis­
trative Costs Claimed by the Arizona Department of Economic Security for its Disability Determination Services (DDS) Administration (A-15-99-51009,
8/31/01).
 e.See footnote c.
  f. Single Audit of the State of Alabama for the FY Ended September 30, 1999 (A-77-01-00006, 3/29/01); Medical Evidence of Record Collection Process
at State DDSs (A-07-99-21003, 6/28/01); Vocational Expert and Medical Expert Fees for Services (A-06-99-51005, 8/21/01); Audit of the Administrative
Costs Claimed by the Arizona Department of Economic Security for its DDS Administration (A-15-99-51009, 8/31/01).
 g.SSA both agrees and disagrees with monies recommended in two reports.
  h.Single Audit of the Illinois DHS for the 2-Year Period Ended June 30, 1999 (A-77-01-00009, 7/17/01); Deeming of Income to Establish Initial Eli­
gibility for SSI Recipients (A-05-99-21005, 9/5/01); Financial-Related Audit of Outreach, Inc. - A Fee-for-Service Representative Payee for SSA (A-09-
00-10068, 9/18/01); Fees Paid by State DDS to Purchase Consultative Examinations (A-07-99-21004, 9/20/01); Financial-Related Audit of the Baltimore
City Department of Social Services - An Organizational Representative Payee for SSA (A-13-00-10066, 9/25/01); Management Advisory Report - Review
of Service Industry Employer with Wage Reporting Problems (A-03-00-10022, 9/27/01); Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/
01).




Appendix A
SSA OFFICE OF THE INSPECTOR GENERAL                                                                              57



Appendix B: Reports Issued
Reports with Nonmonetary Findings

                        Reports Issued from October 1, 2000 through March 31, 2001

   Date
  Issued                                       Title of Report                                   Report Number

 12/01/00   Performance Measure Review: Reliability of the Data Used to Measure the              A-02-99-11002
            Timeliness of Processing Supplemental Security Income Disability Claims

 12/01/00   Fiscal Year 2000 Financial Statement Audit                                           A-15-00-10041

 12/20/00   Redeterminations for Supplemental Security Income Recipients Attaining Age 18        A-01-00-10013

 01/22/01   Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry      A-08-99-41004

             The Social Security Administration’s Internet Data Collection Activities
 02/14/01   (Congressional Report)                                                               A-14-01-21027

            Payments Due to the District of Columbia Water and Sewage Authority for Social
 02/14/01   Security Administration Occupied Buildings (Congressional Report)                    A-15-01-21026

            Management Advisory Report - Performance Measure for the Percent of the
 02/23/01   Continuing Disability Review Multi-Year Plan Completed                               A-01-00-10011

 03/16/01   Single Audit of the State of New Mexico for the Fiscal Year Ended June 30, 1999      A-77-01-00005

            Adherence to Time and Attendance Policies and Procedures in the Social Security
 03/28/01                                                                                        A-13-99-91025
            Administration’s Non-Headquarters Offices

            United States Agency for International Development Office of the Inspector General
 03/30/01                                                                                        A-01-00-20044
            Peer Review (Limited Distribution)

            Review of the Social Security Administration’s Organizational Capacity to Monitor
 03/30/01                                                                                        A-02-00-20020
            and Plan for Customer Service Initiatives

 03/30/01   Use of Sanctioned Medical Providers by State Disability Determination Services       A-07-99-24006

 03/30/01   Information Technology Capital Planning and Investment Control Process at the        A-14-99-12004
            Social Security Administration




                                                                                                     Appendix B
58                                         FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01



                           Reports Issued from April 1, 2001 through September 30, 2001

      Date
     Issued                                        Title of Report                                   Report Number

                PricewaterhouseCoopers LLP Management Letter, Parts 1 and 2 on the Audit of the
     5/03/01                                                                                         A-15-01-21023
                Fiscal Year 2000 Financial Statements of the Social Security Administration

                Performance Measure Review: Reliability of the Data Used to Measure the Hearing
     05/16/01                                                                                        A-02-98-91003
                Process

                Performance Measure Review: Reliability of the Data Used to Measure the Accuracy
     05/16/01                                                                                        A-03-00-10004
                of Earnings Posted

     05/16/01   Force Processing of Magnetic Media Wage Reports with Validation Problems             A-03-99-31001

     05/16/01   Management Advisory Report - Quick Response Activities Summary Report                A-13-01-11001

                Audit of the Social Security Administration’s Fiscal Year 1999 Annual Performance
     05/21/01                                                                                        A-02-00-10039
                Report

                Review of the Social Security Administration’s Office of Child Support Enforcement
     05/30/01                                                                                        A-01-00-20006
                Pilot Evaluation

                Effectiveness of the Social Security Administration’s Special Project Reviews of
     05/30/01                                                                                        A-09-99-62010
                Supplemental Security Income Recipients

                Management Advisory Report - Compliance of the Social Security Administration’s
     06/14/01   Computer Security Program with Applicable Laws and Regulations (Limited              A-13-98-12044
                Distribution)

     06/18/01   Review of the Social Security Administration’s Fiscal Year 2001 Annual Performance   A-02-00-10038
                Plan

     06/18/01   Performance Measure Review: Reliability of the Data Used to Measure Disability       A-07-99-21007
                Determination Services Decisional Accuracy

     06/19/01   Assessment of the Hearings Process Improvement Plan Phase I                          A-06-00-20051

                Performance Measure Review: Reliability of the Data Used to Measure the
     06/28/01   Percentage of Social Security Numbers Issued Accurately                              A-08-99-41003

     07/16/01   Single Audit of the State of Arizona for the Fiscal Year Ended June 30, 1999         A-77-01-00008

     07/17/01   Single Audit of the State of Montana for the 2-Year Period Ended June 30, 1999       A-77-01-00010

                Management Advisory Report - The Accounting of the Social Security
     07/18/01   Administration’s Funds Identified for Recovery as a Result of the Office of the      A-15-99-82016
                Inspector General Investigations

                Costs Claimed by the State of Washington on the Social Security Administration’s
     07/20/01   Contract Number 600-95-22678                                                         A-15-99-51014

     07/25/01   Single Audit of the State of Colorado for the Fiscal Year Ended June 30, 2000        A-77-01-00011

                Social Security Administration’s Intelligent Work Station/Local Area Network and
     08/08/01                                                                                        A-14-99-11005
                Telecommunication Security (Limited Distribution)

                Management Advisory Report - Performance Measure Survey of the Percent of 800-
     08/14/01                                                                                        A-08-01-11024
                Number Calls Handled Accurately




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                                         59



            Financial-Related Audit of An Organizational Representative Payee for the Social
 08/22/01   Security Administration                                                             A-05-00-10067

            The Social Security Administration’s Compliance with the Government Information
 09/05/01   Security Reform Act                                                                 A-14-01-21055

            Establishing Living Arrangements and Value of In-Kind Support and Maintenance for
 09/06/01   Supplemental Security Income Recipients                                             A-05-99-21002

 09/13/01   Employee Access to the Earnings Record Maintenance System (Limited Distribution)    A-14-00-10036

 09/17/01   Summary of Fiscal Year 2000 Single Audit Oversight Activities                       A-07-00-10032

 09/18/01   Performance Measure Review: Reliability of the Data Used to Report 800-Number       A-02-00-10019
            Performance

            Review of the Social Security Administration’s Critical Infrastructure Protection
 09/18/01   Program (Limited Distribution)                                                      A-14-01-01019

            Effectiveness of the Internal Controls over the Office of Financial Policy and
 09/18/01   Operation’s Remittance Process (Limited Distribution)                               A-15-00-20046

            Audit of the Social Security Administration’s Fiscal Year 2000 Annual Performance
 09/20/01   Report                                                                              A-02-01-11008

            Lockheed Martin Services, Inc. Contract Closeout on Contract Numbers 600-89-0014
 09/21/01   and 600-92-0019 (Limited Distribution)                                              A-15-01-21040

            Management Advisory Report - Evaluation of the Efficiency of Using Forms SSA-1587
 09/25/01   and SSA-1588 to Detect Unreported Marriages                                         A-13-01-31002

            Management Advisory Report - Review of the Social Security Administration’s
 09/25/01   Controls to Prevent and Detect Direct Deposit Fraud (Limited Distribution)          A-14-99-12008

            Costs Claimed by the State of Wisconsin on the Social Security Administration’s
 09/26/01   Contract Number 600-95-22680 (Limited Distribution)                                 A-15-99-51015

            Performance Measure Review: Reliability of the Data Used to Measure Field Office
 09/27/01   Access                                                                              A-04-99-03008

            Replacement Social Security Number Cards: Opportunities to Reduce the Risk of
 09/27/01   Improper Attainment and Misuse                                                      A-08-00-10061

            Management Advisory Report - Implementation of the Government Information
 09/27/01   Security Reform Act (Limited Distribution)                                          A-14-01-21056




                                                                                                    Appendix B
60                                        FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


Reports with Questioned Costs


                          Reports Issued from October 1, 2000 through March 31, 2001

 Date Issued                          Title of Report                          Report Number   Dollar Amount

     01/12/01   Single Audit of the Michigan Family Independence Agency        A-77-01-00001       $1,800,000
                for the 2-Year Period Ending September 30, 1996

                Single Audit of the District of Columbia’s Department of                           To Be
     02/05/01   Human Services for the Fiscal Year Ended September 30,         A-77-01-00002
                1997                                                                            Determined

                Single Audit of the District of Columbia’s Department of                           To Be
     02/05/01   Human Services for the Fiscal Year Ended September 30,         A-77-01-00003
                1998                                                                            Determined

     02/08/01   Audit of the Administrative Costs Claimed by the District of   A-13-98-91003        $226,741
                Columbia Disability Determination Division

     02/26/01   Audit of the Administrative Costs Claimed by the Oregon        A-15-99-52021        $180,668
                Disability Determination Services

                Single Audit of the State of Mississippi for the Fiscal Year                       To Be
     03/29/01   Ended June 30, 1999                                            A-77-01-00004
                                                                                                Determined

                Single Audit of the State of Alabama for the Fiscal Year                           To Be
     03/29/01   Ended September 30, 1999                                       A-77-01-00006
                                                                                                Determined

     03/29/01   Single Audit of the State of New York for the Fiscal Year      A-77-01-00007        $475,785
                Ended March 31, 1999

     03/30/01   Payments to Young Spouses and Surviving Spouses                A-09-00-10002        $406,194
                Without Child In-Care

                                                                                      TOTAL:    $3,089,388




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                                        61



                        Reports Issued from April 1, 2001 through September 30, 2001

Date Issued                         Title of Report                            Report Number   Dollar Amount

  05/07/01    Controls Over Recording Supplemental Security Income             A-01-00-10005      $93,535,250
              Overpayments

              Financial-Related Audit of Hale Barnard Services - A Fee-
  05/07/01    for-Service Representative Payee for the Social Security         A-01-00-10060         $22,774
              Administration

              Old-Age, Survivors and Disability Insurance Benefits Paid to
  06/19/01    Deceased Auxiliary Beneficiaries                                 A-01-00-20043      $31,435,889

              Single Audit of the Illinois Department of Human Services
  07/17/01    for the 2-Year Period Ended June 30, 1999                        A-77-01-00009         $90,000

              Financial-Related Audit of an Individual Representative
  07/27/01                                                                     A-03-00-10064          $8,092
              Payee for the Social Security Administration

  08/02/01    Unresolved Death Alerts Over 120 Days Old                        A-09-00-10001       $2,171,423

  08/21/01    Approval of Claimant Representatives and Fees Paid to            A-12-00-10027        $510,000
              Attorneys

  08/24/01    Single Audit of the State of Florida for the Fiscal Year Ended   A-77-01-00012        $173,612
              June 30, 2000

  08/29/01    Single Audit of the State of West Virginia for the Fiscal Year   A-77-01-00013       $1,552,922
              Ended June 30, 2000

              Single Audit of the Commonwealth of Puerto Rico,
  08/30/01    Department of the Family for the Fiscal Year Ended               A-77-01-00014       $1,703,713
              June 30, 1997

              Audit of the Administrative Costs Claimed by the
  09/17/01    Connecticut Disability Determination Services (Limited           A-15-00-30016        $121,965
              Distribution)

              Financial-Related Audit of Outreach, Inc. - A Fee-for-Service
  09/18/01    Representative Payee for the Social Security                     A-09-00-10068        $104,053
              Administration

  09/18/01    Payments Made to Selected Representative Payees after            A-13-01-21028          $7,449
              the Deaths of Social Security Beneficiaries

              Financial-Related Audit of the Baltimore City Department
  09/25/01    of Social Services - An Organizational Representative Payee      A-13-00-10066        $574,375
              for the Social Security Administration

                                                                                      TOTAL:   $132,011,517

                                                                                    FY 2001    $135,100,905
                                                                               GRAND TOTAL:




                                                                                                   Appendix B
62                                       FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


Reports with Funds Put to Better Use


                         Reports Issued from October 1, 2000 through March 31, 2001

 Date Issued                      Title of Report                       Report Number      Dollar Amount

 03/29/01      Single Audit of the State of Alabama for the Fiscal                             To Be
               Year Ended September 30, 1999                            A-77-01-00006
                                                                                            Determined
                                                                                  Total:                 $0

                        Reports Issued from April 1, 2001 through September 30, 2001

 Date Issued                      Title of Report                       Report Number      Dollar Amount

 06/28/01      Medical Evidence of Record Collection Process at         A-07-99-21003            $1,011,772
               State Disability Determination Services

 07/17/01      Single Audit of the Illinois Department of Human         A-77-01-00009              $12,994
               Services for the 2-Year Period Ended June 30, 1999

 08/08/01      Internal Controls Over the Office of Hearings and        A-12-00-10023             $451,089
               Appeals Interpreter Services

 08/21/01      Vocational Expert and Medical Expert Fees for            A-06-99-51005            $5,774,295
               Services

 08/31/01      Audit of the Administrative Costs Claimed by the
               Arizona Department of Economic Security for its          A-15-99-51009             $844,518
               Disability Determination Services Administration

 09/05/01      Deeming of Income to Establish Initial Eligibility for
               Supplemental Security Income Recipients                  A-05-99-21005            $5,006,201

 09/18/01      Financial-Related Audit of Outreach, Inc. - A Fee-for-
               Service Representative Payee for the Social Security     A-09-00-10068             $632,894
               Administration

 09/20/01      Fees Paid by State Disability Determination Services
                                                                        A-07-99-21004            $2,438,087
               to Purchase Consultative Examinations

 09/25/01      Financial-Related Audit of the Baltimore City
               Department of Social Services - An Organizational        A-13-00-10066            $2,797,744
               Representative Payee for the Social Security
               Administration

 09/27/01      Management Advisory Report - Review of Service
               Industry Employer with Wage Reporting Problems           A-03-00-10022            $6,000,000

 09/27/01      Audit of Enumeration at Birth Program                    A-08-00-10047            $1,260,000

                                                                                  Total:     $26,229,594

                                                                        GRAND TOTAL:         $26,229,594




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                              63



Appendix C: Reporting Requirements Under
the Omnibus Consolidated Appropriations
Act for Fiscal Year 1997
To meet the requirement of the Omnibus Consolidated Appropriations Act for 1997 (Public Law
104-208), we are providing in this report requisite data for Fiscal Year (FY) 2001 from the Offices
of Investigations (OI) and Audit (OA).

Office of Investigations

We are reporting $44,171,798 in Social Security Administration (SSA) funds as a result of our OI
activities in this reporting period. These funds are broken down in the table below.

                  1st Quarter      2nd Quarter      3rd Quarter      4th Quarter         Total

 Court Ordered       $4,933,617        $4,199,574       $3,749,695       $2,388,241     $15,271,127
 Restitution

 Scheduled           $4,255,046        $4,984,830       $7,327,743       $8,148,723     $24,716,342
 Recoveries

 Fines                 $280,351           $2,902          $52,437          $47,830         $383,520

 Settlements/
                       $851,608        $1,346,287       $1,497,038        $105,876       $3,800,809
 Judgments

         Totals   $10,320,622      $10,533,593       $12,626,913      $10,690,670     $44,171,798


Office of Audit

SSA management has also informed OA that it has completed implementing recommendations
from five audit reports during this FY valued at $261 million.

Waivers Granted for Title II Overpayments Exceeding $500 (A-09-97-61005),
September 27, 1999

We recommended that SSA provide field offices (FO) with additional guidance and training to
clarify when recovery of overpayments from beneficiaries would “defeat the purpose of title II”
or be “against equity and good conscience.” Specifically, SSA should revise its waiver checklist
to further assist FOs in completing and documenting their reviews of waiver cases, with
emphasis on the computation of monthly income and expenses, identification of beneficiaries
with possession of overpayments, and allocation of household income and expense. The imple­
mented recommendation is valued at $37,417,426.




                                                                                         Appendix C
64                               FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007),
September 27, 1999

We recommended that SSA request assistance from school officials in identifying and reporting
changes in student attendance which may affect their benefit status. The implemented recom­
mendation is valued at $140,359,563.

Review of Controls Over Processing Income Alerts Which Impact Supplemental
Security Income Payments (A-05-98-21002), September 28, 2000

We recommended that SSA develop a plan to ensure that income alerts are worked more timely
and income estimates are used. The implemented recommendation is valued at $60,444,802.

Conversion of Benefits for Spouses After the Death of a Wage Earner, (A-09-99-62009),
September 27, 2000

We recommended that SSA modify the Regular Transcript, Attainment, and Selection Pass pro-
gram to identify all individuals receiving benefits as spouses or divorced spouses of deceased
beneficiaries. The implemented recommendation is valued at $22,300,000.

Audit of the Administrative Costs Claimed by the Arizona Department of Economic
Security for its Disability Determination Services Administration (A-15-99-51009),
August 31, 2001

We recommended that the Arizona Department of Economic Security reduce reported Limita­
tion on Administrative Expenses unliquidated obligations for Fiscal Years 1997 and 1998 by
$293,467 and $249,892 respectively. Also reduce automated investment funds unliquidated
obligations by $163,400. The implemented recommendation is valued at $706,759.




Appendix C
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                  65



Appendix D: Collections From Investigations
and Audits
The Fiscal Year 1999 appropriations language for this office requires us to report additional
information concerning actual cumulative collections and offsets achieved as a result of
Inspector General activities each semiannual period.

Office of Investigations

                    Total Restitution Reported by the Department of Justice (DoJ)
                       as collected for the Social Security Administration (SSA)
                         Total Number of            Court Ordered Restitution for      Total Restitution Collected by
                       Individuals Assigned                 This Period                             DoJ

      1999                      447                                     $13,100,203                         $1,292,954

      2000                      441                                     $13,526,283                         $2,232,424

      2001                      446                                     $15,271,127                         $2,139,695

         Totals                1,334                                 $41,897,613                          $5,665,073


                              Funds Received by the Office of Investigations
                                       Based on Recovery Actions
                       Number of Recovery               Amount Scheduled for           Actual Amount Recovered at
                        Actions Initiated                   Recovery                   the Close of the Investigation

      1999                     1,624                                    $25,725,385                         $3,326,913

      2000                      445                                     $12,722,135                         $4,320,432

      2001                     1,487                                    $24,716,342                       $10,239,407a

         Totals                3,556                                 $63,163,862                        $17,886,752

   a.	 Of the $10,239,407 reported $463,857 was reported by SSA as posted to individual Social Security claim num­
       bers. This money was for Old-Age, Survivors, and Disability Insurance remittances only.




                                                                                                            Appendix D
66                                         FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


Office of Audit

               Number        Questioned/                            Amount            Amount
                 of          Unsupported         Management        Collected or     Written Off/         Balance
               Reports          Costs            Concurrence        Received        Adjustments

 FY 1999          10             $83,989,044        $82,651,849       $4,359,257     $79,580,222a              $49,565

 FY 2000           7             $76,991,654        $76,961,005          $90,017           $1,155         $76,900,482

 FY 2001          23           $135,100,905        $131,089,393       $2,039,707         $406,194        $132,655,004

     Totals       40         $296,081,603       $290,702,247        $6,488,981      $79,987,571       $209,605,051

     a.	 SSA implemented recommendations contained in the reports, Waivers Granted for Title II Overpayments Exceed­
         ing $500 (A-09-97-61005, 9/27/99) and School Attendance by Child Beneficiaries Over Age 18 (A-09-97-61007,
         9/27/99) valued at $78,218,468 and as a result, these questioned costs were prevented from occurring.




Appendix D
SSA OFFICE OF THE INSPECTOR GENERAL                                                             67



Appendix E: Significant Monetary
Recommendations From Prior Fiscal Years
for Which Corrective Actions Have Not Been
Completed
Old-Age, Survivors and Disability Insurance Benefits Paid to Fugitives
(A-01-00-10014), August 29, 2000

Recommendation: We recommended that Social Security Administration (SSA) pursue legisla­
tion prohibiting payment of Old-Age, Survivors and Disability Insurance (OASDI) benefits to
fugitives similar to the provisions pertaining to Supplemental Security Income (SSI) payments
under P. L. 104-193.

Valued at: $39,646,884 in funds put to better use, based on legislative action.

Agency Response: SSA agreed that the proposal to suspend OASDI benefits for fugitive felons,
as is currently done in the SSI program, deserves serious consideration. Further, SSA recog­
nized that it may be viewed as problematic to have different fugitive felon standards for the
OASDI and SSI programs.

Corrective Action: SSA is continuing an evaluation of the proposal for inclusion in SSA’s next
legislative package.

Identification of Fugitives Receiving Supplemental Security Income Payments
(A-01-98-61013), August 28, 2000

Recommendation: We recommended that the SSA reach agreement with State agencies, which
either do not enter all fugitive felon data into the National Crime Information Center (NCIC) or
provide data to the U.S. Department of Agriculture, to obtain its fugitive information in an elec­
tronic format on a routine basis.

Valued at: $76,418,468 in questioned costs and $29,856,060 in funds put to better use.

Agency Response: SSA agreed with the recommendation.

Corrective Action: SSA has matching agreements with a number of States, however, SSA has
learned that there are more sources than originally thought which do not submit fugitive felon
data to the NCIC. Although it will take longer than expected, SSA’s Regional Fugitive Coordi­
nators and field office staff will continue setting up new matching agreements with State and
local authorities until the task is completed. The staff resources available to identify reporting
entities, negotiate agreements and analyze data will dictate the amount of time needed to com­
plete all of the required agreements.




                                                                                         Appendix E
68                                 FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


Payments to Child Beneficiaries Age 18 or Over Who Were Neither Students Nor
Disabled (A-09-99-63008), May 18, 2000

Recommendation: We recommended that SSA modify its automated system to terminate bene­
fits to child beneficiaries at age 18 if they are neither under a disability or a full-time student.

Valued at: $435,282 in funds put to better use.

Agency Response: SSA agreed that all child beneficiaries who are neither under a disability nor
full-time students should have their benefits automatically terminated at age 18.

Corrective Action: SSA plans to more fully automate this workload with implementation of
Release 3 of Title II Redesign (T2R). Release 3 will provide the systems capability to: 1) termi­
nate benefits to child beneficiaries at age 18 if they are neither under a disability nor full-time
students; and 2) automate the processing of many of the complex cases now worked manually,
such as those involving workers’ compensation. Some cases will still require manual processing
because of the level of complexity, e.g., triple entitlement. While it is not possible to predict
exact numbers of cases at this point, we anticipate that the majority of this workload will be
fully automated with Release 3.

SSA estimates that it will be approximately 2 and a half years before Release 3 can be imple­
mented. In the interim, it would not be a cost-effective use of resources to implement any pre-
T2R system modifications that would be obsolete when Release 3 becomes operational.

The Social Security Administration Incorrectly Paid Attorney Fees on Disability
Income Cases When Workers’ Compensation Payments Were Involved
(A-04-98-62001), March 8, 2000

Recommendation: We recommended that SSA review the cases in our sample to determine the
proper attorney fee payment and take the required actions on the $18,410 in errors of which
$17,238 were overpayments and $1,172 were underpayments.

Valued at: $33,852,529 in funds put to better use and $17,238 in questioned costs.

Agency Response: SSA agreed. They will review the sample cases and take the appropriate
action.

Corrective Action: SSA’s Office of Operations continues to review the three remaining sample
cases.




Appendix E
SSA OFFICE OF THE INSPECTOR GENERAL                                                            69



Appendix F: Significant Nonmonetary
Recommendations From Prior Fiscal Years
for Which Corrective Actions Have Not Been
Completed
Procedures for Verifying Evidentiary Documents Submitted With Original Social
Security Number Applications (A-08-98-41009), September 19, 2000

Recommendation: We recommended that the Social Security Administration (SSA) accelerate
negotiations with U.S.Immigration and Naturalization Service (INS) and the U.S. Department
of State (DoS) to implement the Enumeration at Entry program. Once implemented, all non-cit­
izens should be required to obtain their Social Security numbers (SSN) by applying at one of
these Agencies.

Agency Response: SSA agreed that accelerated negotiations are necessary and SSA is commit­
ted to the implementation of the Enumeration at Entry program.

Corrective Action: SSA established a Memorandum of Understanding (MOU) with the INS as
of December 2000. The MOU establishes the provisions under which INS will initially transmit
validation information to SSA for use in assigning SSNs to recently admitted immigrants (i.e.,
permanent resident aliens). It also identifies the long-term goals for INS assistance in meeting
our objective to prevent individuals from using fraudulently obtained documents to obtain
valid SSNs. SSA, INS and the DoS have discussed and finalized the technical aspects of the data
transfer. DoS is making the necessary changes to electronically provide the enumeration data to
INS. The systems release is scheduled for June 2002. INS started the systems changes needed to
transmit the enumeration data to SSA. SSA has started to work to make the changes to accept
the data from INS and use that data to assign SSNs. An interagency agreement is being drafted
and once signed, INS expects it will take about 8 months to complete the systems changes.

Recommendation: We recommended that SSA continue efforts and establish an implementa­
tion date for planned system controls that will interrupt SSN assignment when multiple cards
are mailed to common addresses not previously determined to be legitimate recipients (for
example, charitable organizations) and/or when parents claim to have had an improbably
large number of children.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Agency continues its efforts to implement enhancements in the Mod­
ernized Enumeration System. The General Project Scope Agreement (PSA) for this initiative
was signed in November 2000. It breaks the effort into 3 releases. The PSA for Release 1, which
will handle the too-many-children issue, was signed December 2000. Requirements definition
began January 2001. The Software Development Plan, containing the detailed work schedule, is
currently being developed. It is estimated that Release 1 will be implemented in the summer of
2002. Release 2 will interrupt processing for too-many-cards to the same address; and will likely
be completed within 18 months of Release 1.



                                                                                       Appendix F
70                                  FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01


The Social Security Administration is Pursuing Matching Agreements with New York
and Other States using Biometric Technologies (A-08-98-41007), January 19, 2000

Recommendation: SSA should pursue a matching agreement with New York so that the
Agency can use the results of the State’s biometric technologies to reduce and/or recover any
improper benefit payments.

Agency Comments: SSA agreed with the recommendation.

Corrective Action: A biometric pilot in New York is being pursued for Spring 2002 implemen­
tation. The Office of Disclosure Policy (ODP) is awaiting comments from all SSA components
on a Federal Register notice regarding changes to existing systems of records that are related to
this project.

Since our last report, the pilot methodology has been revised considerably. The new method of
verifying claimant identity will be non-electronic. The change involves the verification, via pho­
tograph, of the identity of an individual at a consultative examination (CE) requested by the
New York DDS. It is anticipated that the study will provide data regarding the rate of identity
match/non-match at the time of the CE and the rate of claimants who have photographic iden­
tification available at the initial interview in the field office. The proposal included both title II
and title XVI adult applicants. The voluntary nature of the project will be explained and appli­
cants will be provided the opportunity to offer written statements if they refuse to provide pho­
tographic identification. One product of the pilot evaluation will be recommendations as to
possible next steps in this area, including consideration of biometrics. The date for the conclu­
sion and evaluation of the pilot is not committed at this time.

Recommendation: SSA should initiate pilot review to assess the cost efficiency of matching
data with other States that have employed biometrics in their social service programs.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Office of Disability and Income Security Programs is working with the
Office of the Inspector General on a draft agreement needed to implement a New York pilot.
Based on the results of the New York pilot, SSA will make a decision as to whether the pilot
should be expanded to other States. The draft agreement is currently before the SSA Data Integ­
rity Board representatives for comment.




Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                              71


Nonresponder Representative Payee Alerts for Supplemental Security Income
Recipients (A-09-96-62004), September 23, 1999

Recommendation: We recommended that SSA develop procedures for employees to redirect
benefit checks to field offices (and require representative payees to provide the accounting
forms before releasing the checks) in instances where other attempts to obtain the required
forms have been unsuccessful.

Agency Response: SSA agreed, in part. When a representative payee does not respond or will
not cooperate after repeated attempts to obtain an annual accounting, the field office is required
to consider a change of payee when necessary. When the field office determines that a change
of payee is necessary, they develop for a successor payee. If a payee is not readily available, the
beneficiary is paid directly or placed in suspense status under certain limited circumstances.

Corrective Action: SSA proposed legislation to redirect benefit checks when representative
payees fail to complete the required accounting form as part of a package of improvements to
the payee monitoring process. This change was included in H.R. 4857, as adopted by the Ways
and Means Committee in September 2000. While it was not passed in the previous congres­
sional session, there is the potential for the proposal to be considered in this congressional ses­
sion. SSA has tentatively included this legislative change as part of the FY 2003 legislative
package that was sent to the Office of Management and Budget.

The Social Security Administration’s Procedures to Identify Representative Payees
Who Are Deceased (A-01-98-61009), September 22, 1999

Recommendation: We recommended that SSA routinely match the Death Master File against
the Master Representative Payee File to identify deceased representative payees and select new
representative payees for all beneficiaries and/or recipients affected.

Agency Response: SSA agreed with the intent of the recommendation, that is, to identify all
cases where a representative payee has died so that the appropriate payee change can be taken.

Corrective Action: Systems has completed a match of the Death Master File, Master Represen­
tative Payee File and Master Beneficiary Record (MBR)/Supplemental Security Record (SSR)
and identified records where it appears SSA is paying a live representative payee and RPS
needs to be updated, as well as, those records where the MBR/SSR indicate that the payee may
be deceased. Field offices have been provided alerts to investigate those cases where the payee
may be deceased.

The Office of Systems (OS) planned to refine this process, perform the match twice each year
and continue to provide the field with those records which need to be investigated. The user
community disagreed with processing this workload bi-yearly in a manual format. OS is now
further investigating changes to the Death Alert, Control, and Update System that could correct
the problem.




                                                                                         Appendix F
72           FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01




Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                      73



Appendix G: Reporting Requirements
The Inspector General Act of 1978, as amended, specifies reporting requirements for semian­
nual reports. The requirements are listed below and indexed to the appropriate pages in this
report.

                                                          Reporting Requirement                                    Pages

 Section 4(a)(2)                Review of Legislation and Regulations                                              N/A

 Section 5(a)(1)                Significant Problems, Abuses, and Deficiencies                                     3-52

 Section 5(a)(2)                Recommendations With Respect to Significant Problems, Abuses, and
                                Deficiencies                                                                       3-52

 Section 5(a)(3)                Recommendations Described in Previous Semiannual Reports on Which
                                Corrective Actions Have Not Been Completed                                         67-71

 Section 5(a)(4)                Matters Referred to Prosecutive Authorities and the Prosecutions and                4-11
                                Convictions Which Have Resulted                                                    29-35
                                                                                                                   38-45

 Sections 5(a)(5) and 6(b)(2)   Summary of Instances Where Information Was Refused                                 N/A

 Section 5(a)(6)                List of Audit Reports                                                              57-62

 Section 5(a)(7)                Summary of Particularly Significant Reports                                        15-52

 Section 5(a)(8)                Statistical Table Showing the Total Number of Audit Reports and Total Dollar
                                Value of Questioned Costs                                                           55

 Section 5(a)(9)                Statistical Table Showing the Total Number of Audit Reports and the Total Dollar
                                Value of Recommendations That Funds Be Put to Better Use                            56

 Section 5(a)(10)               Audit Recommendations More Than 6 Months Old for Which No Management
                                Decision Has Been Made                                                             55-56

 Section 5(a)(11)               Significant Management Decisions That Were Revised During the Reporting
                                Period                                                                             N/A

 Section 5(a)(12)               Significant Management Decisions With Which the Inspector General
                                Disagrees                                                                          N/A




                                                                                                               Appendix G
74           FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01




Appendix G
SSA OFFICE OF THE INSPECTOR GENERAL                                              75



Appendix H: Glossary

              Abbreviation                            Definition

                 AMD         Allegation Management Division

                  BVS        Bureau of Vital Statistics

                  CDI        Cooperative Disability Investigations

                  CDR        Continuing Disability Review

                  CID        Critical Infrastructure Division

                  CIPP       Critical Infrastructure Protection Plan

                  CIRP       Comprehensive Integrity Review Program

                  CMP        Civil Monetary Penalty

                 DACUS       Death Alert, Control, and Update System

                  DDS        State Disability Determination Services

                   DI        Disability Insurance

                  DMF        Death Master File

                  DoJ        Department of Justice

                  EAB        Enumeration at Birth

                  EAD        External Affairs Division

                  ECT        Electronic Crimes Team

                  eDIB       Electronic Disability

                 ERMS        Earnings Record Maintenance System

                  ESF        Earnings Suspense File

                  EVS        Employee Verification Service

                  FBI        Federal Bureau of Investigation

                 FinCEN      Financial Crimes Enforcement Network

                  FTC        Federal Trade Commission

                  FO         Field Office

                  FY         Fiscal Year

                  GAO        General Accounting Office

                 GISRA       Government Information Security Reform Act



                                                                          Appendix H
76                            FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01



             Abbreviation                              Definition

                GPRA        Government Performance and Results Act

                 HO         Hearing Office

                 HPI        Hearings Process Improvement Plan

                IFIPA       Internet False Identification Prevention Act of 2000

                  IG        Inspector General

                 INS        Immigration and Naturalization Service

                 IRS        Internal Revenue Service

                  IT        Information Technology

                 MER        Medical Evidence of Record

               MSSICS       Modernized Supplemental Security Income Claims System

                NCIC        National Crime Information Center

                NDNH        National Directory of New Hires

                 OA         Office of Audit

                OASDI       Old-Age, Survivors and Disability Insurance

                OCIG        Office of the Counsel to the Inspector General

                OCSE        Office of Child Support Enforcement

                 OEO        Office of Executive Operations

                OEVS        Online EVS

                 OHA        Office of Hearings and Appeals

                  OI        Office of Investigations

                 OIG        Office of the Inspector General

                OMB         Office of Management and Budget

                OQA         Office of Quality Assurance and Performance Assessment

                 PD         Police Department

                 PDD        Presidential Decision Directive

                 PwC        PricewaterhouseCoopers LLP

                 RO         Regional Offices

                 ROI        Return on Investment




Appendix H
SSA OFFICE OF THE INSPECTOR GENERAL                                                            77



              Abbreviation                            Definition

                  RPS        Representative Payee System

                  SSA        Social Security Administration

                             Social Security Administration’s Access to State Records
                 SSARO       Online

                  SSI        Supplemental Security Income

                  SSN        Social Security number

                  SSR        Supplemental Security Record

                TREBDET      Terminated Record Balancing and Debt Transfer

                  TY         Tax Year

                 USAO        U.S. Attorney’s Office

                 USMS        United States Marshals Service




                                                                                        Appendix H
78                            FY 2001 SEMIANNUAL REPORT TO CONGRESS 4/01/01-9/30/01




          A Special Thank You





     We would like to extend a special thank you to John Stokes for
     graciously permitting us to use photographs of Osceola, the “hang-
     gliding” eagle, in this publication. Osceola has been in John’s care
     since 1983, when he was found badly injured. Because one wing had
     to be amputated, Osceola was unable to fly on his own. In 1989, John
     crafted a harness for Osceola which permits him to fly along with
     John in a hang-glider. For more on Osceola’s story, please visit John’s
     website at www.geocities.com/Pipeline/3155.

     And, finally, we would like to thank our entire Office of the Inspector General
     staff for their outstanding efforts and contributions, without which this
     report would not have been possible.
              How to Report Fraud

The SSA OIG Fraud Hotline offers a convenient means for
you to provide information on suspected fraud, waste, and
abuse. If you know of current or potentially illegal or
improper activities involving SSA programs or personnel,
we encourage you to contact the SSA OIG Fraud Hotline.

                           Call
                    1-800-269-0271


                          Write
             Social Security Administration

             Office of the Inspector General

              Attention: SSA Fraud Hotline

                     P.O. Box 17768

                 Baltimore, MD 21235


                           Fax
                     410-597-0118


                          Email
                     oig.hotline@ssa.gov
           Visit our website at www.ssa.gov/oig
Social Security Administration
Office of the Inspector General

6401 Security Boulevard
Suite 300 Altmeyer Building
Baltimore, Maryland 21235-6401

To obtain additional copies of this
report visit our website at
www.ssa.gov/oig or call

(410) 966-4020

SSA Pub.No. 85-007

Published November 2001
